<html>
<title> - MISCELLANEOUS PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 110-493]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-493

                    MISCELLANEOUS PUBLIC LANDS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 934                                S. 2834

                           S. 2833                               H.R. 1374



                                     

                               __________

                             APRIL 22, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                -----

                   U.S. GOVERNMENT PRINTING OFFICE

44-367 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee


























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................    12
Bennett, Hon. Robert F., U.S. Senator From Utah..................     5
Craig, Hon. Larry E., U.S. Senator From Idaho....................     3
Crapo, Hon. Mike, U.S. Senator From Idaho........................     9
Eardley, James J., Chairman, Washington County Board of 
  Commissioners, St. George, UT..................................    26
Gehrke, Craig, Regional Director, The Wilderness Society, Boise, 
  ID.............................................................    38
Gibson, Chad C., Owyhee Range Service, Wilder, ID................    34
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service........................................................    20
Jacobson, Julie, Deputy Assistant Secretary, Land and Minerals 
  Management, Department of the Interior.........................    13
Martinez, Hon. Mel, U.S. Senator From Florida....................     2
Meadows, William H., President, The Wilderness Society...........    29
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    51


























 
                    MISCELLANEOUS PUBLIC LANDS BILLS

                              ----------                              


                        TUESDAY, APRIL 22, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. Today 
it is Earth Day. All over the country in communities small and 
large, many Americans are gathering to talk about how to 
protect our treasured land, air and water. So I think it is 
very fitting that today the subcommittee is looking at 
wilderness legislation.
    I'm especially pleased to have two colleagues, Senator 
Bennett and Senator Crapo, who are as hard working and as 
thoughtful as any people I know. They are very much aware of 
what a challenge it is to pull together all of the various 
diverse groups that have strong feelings about wilderness 
legislation. Having talked with both of them recently about 
their legislation, I'm very much aware that both of our 
colleagues have put in scores and scores of hours with all of 
the people that have an interest in this issue. So I very much 
thank them both for coming and just have a couple of remarks to 
make before we go to Senator Craig and our colleagues.
    S. 934 and H.R. 1374 are going to amend the Florida 
National Forest Land Management Act of 2003 to authorize the 
conveyance an additional tract of National Forest System Land. 
S. 2833, the Owyhee Public Land Management Act of 2008, Senator 
Crapo's legislation, will be considered. S. 2834, the 
Washington County Growth and Conservation Act of 2008, Senator 
Bennett's legislation will be considered as well.
    The Wilderness Act, of course, was passed by the 
predecessor to this committee, the Interior and Insular Affairs 
Committee. One of that committee's long time members, former 
Senator Gaylord Nelson, not only was a co-sponsor of the 
Wilderness Act, but was also the founder of the day that is 
celebrated across the land, Earth Day. So it is, as I stated, 
fitting that on Earth Day we hold this hearing to consider 
important additions to the National Wilderness Preservation 
System.
    In my view both of the Wilderness bills that are before us 
today have come a long, long way since they were first 
introduced in the last Congress. The bills reflect the hard 
work of their sponsors and the dedication of their 
constituents. We're going to hear from the Department of the 
Interior and the Forest Service in a few minutes on specific 
concerns of the Administration has indicated they have with the 
legislation. It is our intent after this hearing to continue to 
work with both of our Senators and the Administration to 
address the various issues that have come up.
    One last thought as it relates to Earth Day and the 
beautiful state of Oregon. Many who are here today know that 
Senator Smith and I have worked together to put together 
important wilderness legislation for our home state, the Lewis 
and Clark Mount Hood Wilderness Act and the Copper Salmon 
Wilderness Act. Both bills have had broad support and passed 
this committee on a unanimous basis.
    If I had my way we would be celebrating Earth Day by 
passing those bills on the floor of the Senate. But I am 
hopeful that they will pass in the near future. That the people 
of Oregon and our various supporters and friends from around 
the country can celebrate Earth Day next year with new 
wilderness legislation in our wonderful state.
    So at this point I want to recognize our colleague Senator 
Craig from Idaho who has a great interest in these issues. 
Senator Barrasso I think will be joining us at some point. 
We'll recognize him for his opening statement, but when Senator 
Craig has completed his statement we'll go right to our 
witnesses.
    [The prepared statement of Senator Martinez follows:]
  Prepared Statement of Hon. Mel Martinez, U.S. Senator From Florida, 
                               on S. 934
    Mr. Chairman: Thank you for holding this important hearing today on 
S.934, which will authorize a land conveyance in the Apalachicola 
National Forest outside of Tallahassee, Florida to purchase more in-
holdings with the Forest. I have joined my colleague Senator Bill 
Nelson in cosponsoring this legislation, and I commend Congressman 
Allen Boyd and Congressman Ander Crenshaw for introducing the 
bipartisan House companion bill HR 1374.
    The legislation modifies the Florida National Forest Land 
Management Act to allow the Forest Service to sell 114 acres of land 
that has become completely surrounded by development and the expansion 
and widening of Capitol Circle/US 319, which is a major transportation 
and hurricane evacuation route. According to the Forest Service, this 
tract of land has become increasingly expensive and difficult to manage 
because of real estate and commercial development. As a result, the 
land has lost its National Forest character and has become a burdensome 
expense on management efforts for the Apalachicola National Forest. The 
proceeds of selling this tract, called W-1979, will allow the Forest 
Service to purchase 2,000 acres of sensitive land that will consolidate 
holdings within the National Forest.
    In addition to providing a large environmental benefit to the 
Apalachicola Forest, the legislation will provide the Forest Service 
with the authority and flexibility to improve and maintain 
administrative facilities essential to the management of Florida's 
forest land. By granting the Forest Service the ability to use the 
proceeds of land sales from ``non-green'' parcels to be directed 
towards basic operations and maintenance work makes common sense. 
Considering the continuing funding difficulties we face in addressing 
the basic up-keep of our vast public land, we should encourage some 
creative thinking to meet these challenges.
    It is my hope that we can quickly move this legislation through the 
Committee. It is supported by the Forest Service, the City of 
Tallahassee, Leon County government officials, as well as environmental 
advocacy groups. This bill is a win-win for the Apalachicola National 
Forest and the future economic development of Leon County, and I look 
forward to working with the Committee to bring this legislation into 
fruition.

    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Ron, thank you for holding this hearing, 
especially on the Owyhee initiative in a very timely way 
because Senator Crapo has just introduced a re-draft of the 
language that he put before the Senate last year. I think we 
all appreciate that.
    What you're going to hear today, and as you view the 
picture, Ron, as you're going to see some of the most marvelous 
high desert canyon lands in the Great Basin West. It is a 
treasure of our State. We find it not only a phenomenal 
resource for how we think of it in a traditional way, as it may 
result to wilderness, but it has also been a resource in which 
human kind has lived now for well over a century.
    Some of the largest public land ranches in Idaho reside in 
and around this territory. The air space has produced one of 
the most effective training ranges for the U.S. Air Force in 
the world which gives us the kind of efficiencies today we see 
over Iraq and Afghanistan. So it is without question, a very 
unique property, something that Idahoans and now, nationally, 
the citizens of our country are obviously very excited and 
pleased about.
    As you know when it comes to wilderness designation and 
because it may in one way or another prevent the kinds of 
access that citizens and Idahoans have traditionally approached 
their public lands with, I approach these designations with a 
good deal of caution as I know my colleague, Senator Crapo has. 
As for the last good number of years now he has worked in a 
phenomenally diligent way with all of the stakeholders involved 
to produce the legislation, S. 2833, that we have before us. I 
can only give my colleague high praise because of his 
phenomenal dedication to the issue of trying to get the 
differences between all of the stakeholders resolved in a 
compatible way to assure and sustain the long term, long time 
use of our public lands as we have historically known them in 
Idaho. That is public land grazing, large open western range 
kind of States, not unlike your Eastern Oregon in the Steens 
Mountain country and all of that country that you know so well. 
This land is comparable and yet different in many ways.
    So let's record the hours, but let's also recognize the 
collaborative effort that has been underway here because that's 
something that you and I are very proud of. The Craig-Wyden 
bill over the years have produced literally thousands of 
agreements between what once were warring or I should say 
disagreeing parties on how we approach our resources and manage 
them. You and I were able to resolve that by putting the right 
incentives in place. Certainly the right incentive here is to 
find common ground, as much common ground as you can for all of 
the stakeholders.
    Yet we know, I know, personally. Mike Crapo knows because 
he's been involved in it from day one, sitting long hours at a 
table in discussions where there has been a lot of compromises. 
That all parties have given a little and given back a little 
more than they might have otherwise wanted on the issue. So, 
clearly those are concerns that I think he deserves, I mean 
that Senator Crapo deserves an A for in his effort.
    As I have approached this issue and stepped back, having my 
staff engaged at all times with the Crapo staff and with all 
the stakeholders, I've expressed very limited concerns. Ron, 
you will not remember, but Idaho long remembers and a good many 
out there remember that a few years ago I, along with Mike and 
others, and Governor Andress at the time, created what is now 
known as a world class training range for our airmen and women. 
I, in no way, want to see that impaired, nor do I want its 
activities to impair the natural resource base. It is unique.
    When you fly this country, you fly Afghanistan. When you 
fly this country, you fly Northern Iraq. If you don't believe 
me, come to Mountain Home Air Force Base and visit with our 
airmen who fly this country in their training and preparation. 
As a result have achieved some of the highest delivery rates of 
arsenal on the ground, on target, of any air force in the 
history of our country. For that, we have another national 
asset that adjoins this by property and boundary that I have 
made sure and worked very closely to be quite confident we did 
not impair now and into the future.
    Second, there was an issue of land exchanges and buyouts. 
That's key. That's very important in this legislation. I wanted 
to make sure that all parties crossed the finish line at the 
same time as you know, certainly, chairing this committee.
    Oftentimes, when we pass re-designation of public lands, 
those who are for the designation immediately win when the bill 
is signed. Those who are by action of agreement termed to be 
those compensated in the future, sometimes that compensation 
never results. Why? Because they stand in line and compete with 
other money needs that are critical to our Nation. While they 
at the time may have thought of immediate compensation in many 
instances, true in your State, and true in my State, in a few 
instances that money never came.
    A good number of years ago I approached the Appropriations 
Committee to resolve an issue that is not unlike the Owyhee 
initiative. The great Treasure Valley of Idaho, the Owyhee on 
the southern, western border and just to the north up against 
the foothills of Boise, other public lands now by the urban 
growth in Idaho and in that area are getting, are running the 
risk of being overused. We wanted to protect the foothills of 
Boise for their scenic value and we did.
    The parties came together. I got the money. I want to make 
sure that project is completed before we launch a new project. 
I've worked with Mike on that. I'm reasonably comfortable that 
the language in this bill resolves that issue.
    Clarification of land exchanges is a concern. I think that 
we can resolve that as we work through the fine points of this. 
Once this greets the public eye and once Mike has brought, as 
he has, legislation before the committee. I will see if there 
are fine tunings that need to be done. I would trust they can 
be done in a way that keeps all stakeholders at the table.
    I think that is phenomenally important because Mike, 
Senator Crapo, and his and his staff's effort have struck a 
very important agreement here that in the end, one Senator, 
this Senator especially, but I know Senator Crapo more than 
that would like to see become public policy. We think it would 
be good for that corner of our State, which is bigger than 
about half of the Eastern part of the United States. It would 
be good for national policy, public land use policy also.
    So, I'm pleased it's before the committee. I look forward 
to the testimony. Thank you.
    Senator Wyden. Thank you, Senator Craig. What we'll do at 
this point we'll hear from Senator Bennett. We'll hear from 
Senator Crapo.
    My understanding is our two colleagues would like to sit 
with the committee after their testimony and the bipartisan 
leadership of this committee is pleased to have both of you 
participate. We know that you've put in a lot of time working 
with folks at home on this. Please proceed as you wish. Why 
don't we start with you Senator Bennett?

  STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. We 
appreciate your taking time out of your busy schedule to hold 
this hearing. A lot of work has gone into S. 2834, the 
Washington County Growth and Conservation Act.
    I'm pleased to share with you the significant progress 
that's been made since the last time I appeared before this 
subcommittee when Senator Craig was chairing it. I think in the 
intervening time period we have successfully struck a balance 
between conservation and growth in Washington County. I'm 
grateful for the opportunity to discuss this with you here 
today. I will point out once again this has been a bipartisan 
effort to a companion bill that has been introduced in the 
House by the Congressman from Washington County, Congressman 
Jim Matheson, a member of the democratic majority.
    Wilderness in Utah is the subject that has been discussed 
with a great deal of energy, shall we say, for over 30 years. 
There's probably not much more to be said about it because in 
that 30-year period everyone has made his or her views pretty 
firmly known. It's time now to act rather than have a rehearsal 
of these positions that have been taken.
    I've been concerned with this for the 15 plus years I've 
been here in the Senate. This particular process, begun by 
Governor Arlene Walker that produces today's bill has been 
going on for 5 years. So it's time to get it done.
    This bill is the product of good faith collaboration. I say 
that, I underscore that, good faith collaboration, with a 
diverse group of interests. It has local support as well as 
support from a number of national environmental groups.
    I could not in all honesty refer to good faith negotiation 
through the entire 30-year period I've discussed. There have 
been times where people have come to the table and said why 
we're here to negotiate in good faith then simply stated their 
demands, stated the table, raised the decibel count of the 
stating of their demands. Then stalked away saying well, we 
were not dealt with in good faith.
    In the experience that I have had working on this bill that 
phenomenon has disappeared. I'm very grateful to the various 
groups that have been willing to recognize that there has to be 
some give and take. That has been true in this process. It has 
been done in good faith.
    Now no one is completely happy with this legislation. 
Around here that may be a sign of a good bill. It provides us 
with a comprehensive planning tool for public land in 
Washington County. It's the Federal counterpart to a local 
driven effort called Vision Dixie.
    I have to explain that Washington County is in the south of 
the State of Utah. Somewhere along its line in its history it 
was known as Utah's Dixie. So Vision Dixie is the locally 
driven planning effort that we will be hearing more about from 
Commissioner Eardley from Washington County. But because of the 
amount of public land in Washington County, local and Federal 
efforts have to go hand in hand if it's going to work. That's 
been the case here.
    So as the bill's title indicates we address both growth and 
conservation aspects of the land in Washington County. Let me 
start with the conservation side. This bill will provide 
permanent protection for hundreds of thousands of acres of some 
of the Nation's most sensitive landscapes. As part of this 
process I have flown over it in helicopter with the 
representatives of both sides and it is absolutely spectacular.
    We designate more than 264,000 acres of wilderness in 
Washington County including more than 94 percent of all of the 
existing BLM wilderness study areas. When this bill is enacted 
more than 1 out of every 5 acres, or 20.5 percent of the land 
in Washington County will be federally designated wilderness. 
That compares to 3.5 percent now. So we have increased the 
amount of wilderness by something between 6 and 7 times.
    We established two national conservation areas in addition 
that will permanently protect the desert tortoise and other at 
risk and endangered species in the county. I want to stress 
that no cross country travel is allowed in these areas. OHVs 
cannot drive off road and will be allowed only on the roads 
that the BLM identifies in the management plans that they will 
prepare for the national conservation areas.
    Utah has never had a wild and scenic river designated. In 
this bill we designate more than 165 miles of wild and scenic 
rivers. I think those things represent significant conservation 
gains.
    From the growth side, switching now from conservation to 
growth, we've taken a small amount of the land in the county 
representing only three-tenths of 1 percent of the total area 
that existing land managers, that is people who are currently 
involved in managing the land right now, have identified as 
suitable for disposal. We have created a framework under which 
this low priority and non-environmentally sensitive land will 
be sold. Then use the vast majority of the proceeds to acquire 
high priority biologically significant lands in the county. 
Thus reconfiguring land ownership in a way that makes sense for 
conservation values and I believe that enhances the Federal 
estate.
    Now, we do adopt the Nevada precedent in these land sales 
of creating a system whereby the local government can benefit 
from the land sales. I understand that there are some who are 
not as enthusiastic about this portion of the bill as they 
might be about others. We authorize the BLM to identify, in 
addition to the acres they have already picked, up to an 
additional 5,000 acres for disposal under the same framework.
    I want to make it very clear. This does not mean the BLM 
can't use other means to dispose of other lands in following 
proper administrative procedures. It simply says that no more 
than 5,000 acres can be disposed of under the framework that we 
set up for the existing lands. The BLM will have to follow both 
their planning process and conform with Vision Dixie 
principles. So this is the way we have the Federal and the 
local planning go hand in hand.
    I want to make it clear once again. The 5,000 acre figure 
is a cap and not a target. I do that because in the previous 
bill we had 20,000 acres as a cap and some of the newspaper 
stories said that this bill was disposing of 20,000 acres. That 
bill was not, and to make it clear, that we do not intend to go 
to that level. We put in the limit of 5,000.
    There are a number of other provisions in the bill that are 
important. But I see I am over my time. I would ask the 
chairman to include my written remarks in the hearing record.
    [The prepared statement of Senator Bennett follows:]
 Prepared Statement of Hon. Robert F. Bennett, U.S. Senator From Utah, 
                               on S. 2834
    CHAIRMAN WYDEN, and members of the subcommittee: I appreciate you 
taking the time out of your busy schedules to hold this hearing on S. 
2834, the Washington County Growth & Conservation Act of 2008. A lot of 
work has gone into this bill, and I am pleased to share with you the 
significant progress that we have made since the last time we met 
before this subcommittee. I believe that we have successfully struck a 
balance between conservation and growth in Washington County, and I am 
thankful for the opportunity to discuss this today.
    Mr. Chairman, this is the most important natural resources bill I 
have introduced in my Senate career, and I am very proud of it. I have 
worked for more than 15 years to try to bring all sides to the table to 
finally resolve the wilderness question in my home state, and I believe 
that this bill will provide the foundation to do that. This bill is the 
product of good faith collaboration with a diverse group of interests, 
and has local support as well as support within the national 
environmental community. We have worked hard to get to this point. 
These kinds of comprehensive bills do not work unless the people who 
are affected the most--the people who live there--buy into the concept.
    This has certainly not been an easy process. We have dealt with 
people who threw out their list of demands and then walked away from 
the table, only to complain later that they were left out of the 
process. We have poured through thousands of public comments and sat in 
countless meetings with stakeholders to get additional information. We 
have spent hundreds of hours on the ground with local land managers, 
city and county leaders, conservation groups, and many others who 
believe that the lands in Washington County are special and want to 
work toward a resolution. There has been a lot of give-and-take, and no 
one is completely happy with everything in this legislation. Around 
here, that is often the sign of a good bill. I want to commend the 
people who have worked with me throughout this process in good faith, 
actually seeking a resolution on this issue rather than a perpetuation 
of the problem, and I am confident we can continue these efforts 
throughout the state of Utah.
    This legislation is necessary to help preserve the unique nature of 
Washington County for generations to come. It is the federal 
counterpart to Vision Dixie--the locally-driven planning effort that I 
am sure Commissioner Eardley will discuss further in his testimony. 
Because of the overwhelming amount of public land in Washington County, 
local and federal planning must go hand-in-hand. These issues are so 
important to Washington County residents that several thousand 
participated in developing the Vision Dixie principles. These 
principles helped us to set priorities in this legislation that will 
guide future growth in Washington County. Vision Dixie never would have 
happened without this land bill to begin the discussion.
    Congressman Matheson and I have made significant changes to the 
previous proposal. We have permanently protected large amounts of 
biologically significant public land in Washington County, including 
additional wilderness and a new national conservation area. We have 
removed the corridor designations for the Lake Powell Pipeline Corridor 
and the Northern Corridor that bisected the Red Cliffs Desert Reserve. 
We have removed right-of-way authorizations in areas that are 
environmentally sensitive, and have significantly limited the amount of 
public land that is authorized for disposal. We have also required a 
comprehensive, county-wide transportation plan to help reduce conflicts 
among competing interests, and include provisions to manage priority 
biological areas. I have included a summary at the end of this 
testimony to further elaborate on each section of this legislation.
    Before I conclude my remarks, I want to clear up any confusion 
about certain parts of the bill, especially as it relates to land 
disposal. I want the legislative record to show my intent in drafting 
these sections.
    Unlike the previous proposal, every parcel of land that will be 
sold under this legislation must be included in the Bureau of Land 
Management's St. George Field Office Resource Management Plan (St. 
George RMP) prior to sale. This means that the BLM must give the public 
an opportunity to participate and comment on each additional acre that 
is identified for disposal. The legislation requires the BLM to only 
identify land for sale that meets the stringent qualifications of the 
Vision Dixie Principles, which significantly limits the acres eligible 
for disposal under this legislation.
    We have also lowered the cap on land sale acreage from 20,000 acres 
to 5,000 acres. I want this to be very clear: we are not ordering the 
BLM to identify an additional 5,000 acres for sale. The 5,000 acres is 
not a target. We are simply capping the amount of acreage BLM is 
authorized to sell under this legislation's framework. I want to point 
out that with or without the bill, BLM still has statutory authority to 
dispose of public land in Washington County, and could identify and 
dispose of significantly more acreage than what we authorize in the 
legislation. For example, the 1999 St. George RMP identified around 
18,000 acres in Washington County for disposal.
    Another substantive change is the revenue sharing from the land 
disposal proceeds. We have directed all but $15 million dollars of the 
federal share of the revenue to acquire lands in Washington County. 
This will allow the BLM to dispose of low-priority, non-environmentally 
sensitive public lands and acquire high-priority, biologically 
significant lands, thereby enhancing the federal estate. Additionally, 
we have given the local share to the county commission--an elected body 
responsible to the people--rather than the Washington County Water 
Conservancy District. We have also included a detailed reporting 
requirement on any expenditure the BLM makes from the land sale 
proceeds.
    I also want to clarify our treatment of off-highway vehicles (OHVs) 
in Washington County, particularly in the biologically-sensitive 
southwest corner. We designate the Beaver Dam Wash National 
Conservation Area (NCA), comprising nearly 80,000 acres, to permanently 
protect this region. This legislation prohibits cross-country and off-
road travel in the NCA by restricting the use of motorized vehicles to 
roads designated in the travel management plan that we direct the BLM 
to develop. This legislation also authorizes the BLM to use a portion 
of the land sale proceeds for enforcement purposes.
    We also deal with OHV travel on public lands throughout the rest of 
the county by requiring the BLM to prepare a comprehensive travel 
management plan which will identify areas where OHVs are allowed and 
not allowed. This plan will help protect sensitive areas that are now 
at risk, while providing additional opportunities for the OHV community 
by designating a system of trails where riding is permitted. Although 
BLM has attempted in the past to develop such a plan, the agency has 
never had sufficient funds to complete it. To cure this problem, this 
legislation will direct a portion of the land sale proceeds to complete 
the comprehensive travel management plan.
    In conclusion, I again thank the chairman for his courtesy, and 
hope that this hearing will be instructive. We have made significant 
changes to this legislation and I hope the committee will act favorably 
and quickly to ensure its passage. I appreciate this opportunity to 
testify and welcome any questions.

    Senator Bennett. I want to close by acknowledging that 
while this has been a difficult process. It's been a very 
rewarding one for me. I think we can create significant 
conservation while balancing growth in the county. I have made 
some good friends and had some good experiences as we have gone 
through this journey.
    Thank you for the opportunity to testify.
    Senator Wyden. Thank you, Senator Bennett. Without 
objection we will put your full remarks into the record. I 
would just say at this point that you are well known here in 
the Senate as somebody who consistently tries to bring people 
together to try to find common ground, that try to address 
concerns that come up in debates where people have passionate 
feelings. It is evident that you're trying hard to do that here 
again. I commend you for it and will welcome your 
participation.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Wyden. Let me welcome my western partner, Senator 
Crapo, my neighbor from the Dirksen Building as well. Senator 
Crapo, please go ahead with your remarks. Let me also commend 
you for, I know, the extraordinary amount of time you've put in 
trying to bring all of the stakeholders and the parties 
together. Please go ahead as you wish.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman. I want to 
thank you. It's been several years now since I first sat down 
and walked you through the process we've been going through for 
years longer than that out in Idaho. You committed then to work 
with me to try to help make this a reality. You have stayed 
true to your word. I appreciate that.
    Senator Wyden. Thank you.
    Senator Crapo. I also want to thank Senator Craig. Not only 
for his kind comments here today at the hearing, but for 
himself working with me consistently to make sure that we can 
put together the kind of land management legislation that will 
work for Idaho and for our country. I truly appreciate Senator 
Craig's efforts as my colleague from Idaho.
    Obviously I want to give my thanks as well to Chairman 
Bingaman and Senator Domenici who also have worked very closely 
with me as I've tried to navigate the paths of the legislative 
process that we need to go through here.
    I want to also stop for a moment and thank, in particular, 
the staff who have worked so hard on this as well. David 
Brooks, who has, I think, given up a significant part of his 
life to work with us here to help make this a reality. Frank 
Gladdox and Darren Parker and others, many others, who have put 
in so much time and effort to help us in Idaho as we've tried 
to work to a successful conclusion to this important project.
    Additionally the BLM has been very helpful to us in working 
through legislative language and creating maps and literally 
helping to iron out issues as they come up. For that I want to 
thank Julie Jacobson and Laurie Sedlemeyer. I truly appreciate 
their efforts. You know, now that I've started naming names, 
I'm going to be remiss because there are so many, particularly 
those in our work group in Idaho, some of whom are here today 
and others who have put in so much time to make this a reality.
    Frankly there are a number of Idahoans here in the audience 
today. I won't try to get them to all stand up or get 
recognized, but this is a truly significant step for us in 
Idaho. We appreciate the support of the committee members and 
the staff in helping to make this happen.
    There are a couple of Idahoans who will testify today who I 
want to recognize. That is Craig Gehrke of The Wilderness 
Society and Dr. Chad Gibson of the Owyhee Range Service. You'll 
hear from them later. But these two gentlemen have also given a 
significant part of their life to this effort over the last 
years. They are to be thanked for that.
    The Owyhee Public Land Management Act of 2008 is the 
result, as Senator Craig has indicated, of almost a decade of 
collaborative effort between all levels of government, the 
tribes, ranchers, users of the public lands and 
conservationists to resolve decades of heated land use conflict 
in the Owyhee Canyon lands in the southwestern part of my home 
State, Idaho. Owyhee County contains some of the most unique 
and beautiful canyon lands in the world, a place that offers 
the grandeur of untouched western trails, rivers and open sky. 
It's imperative that its natural beauty and its traditional 
uses are preserved for future generations.
    The County is a traditional ranching country with 73 
percent of the land base owned by the Federal Government and 
located within an hour's drive of one of the fastest growing 
areas in the Nation, Boise, Idaho. Community expansion, 
development and ever increasing demands on public land are 
having a profound effect on Owyhee County. Given this 
confluence of circumstances, the County has been at the center 
of political and regulatory battles for years.
    Diverse land uses coexist in an area of intense beauty and 
unique character. The conflict over land management is both 
inevitable and understandable. How do we manage for this 
diversity and do so in a way that protects and restores the 
quality of that fragile environment?
    In this context the Owyhee County commissioners and several 
others said enough is enough. They decided to focus efforts on 
solving these problems rather than wasting resources on an 
endless fight. In 2001, the Owyhee County commissioners met 
with me and asked for my help.
    They asked whether I would support them if they could put 
together at one table, the interested parties involved in the 
future of the county to try to reach some solutions. I told 
them that if they could get together a broad base of interest 
who would agree to collaborate in a process committed to 
problem solving, that I would dedicate myself to working with 
them. If they were successful, I would introduce the resulting 
legislation.
    They agreed. Together we set out on a journey, really on a 
road, that is as challenging as any of the Owyhee Canyon land 
roads and some of them are very challenging. David is shaking 
his head. He knows. He's been there.
    Make no mistake. This has been very difficult work. But the 
fruit of that labor, the Owyhee Public Land Management Act of 
2008 has made it time well spent.
    The commissioners formed the work group which includes, 
well, at its first formation, included The Wilderness Society, 
the Idaho Conservation League, the Nature Conservancy, Idaho 
Outfitters and Guides, the United States Air Force, the Sierra 
Club, the County Soil Conservation Districts, Owyhee 
Cattleman's Association, the Owyhee Borderland's Trust, the 
People for the Owyhee's and the Shoshone Paiute Tribes to join 
in their efforts. All accepted and all began work on this bill. 
As the collaborative process gained momentum, the County 
Commissioners expanded the work group to include the South 
Idaho Desert Racing Association, the Idaho Rivers United and 
the Owyhee County Farm Bureau, as well as the foundation for 
North American Wild Sheep and the Idaho Backcountry Horsemen, 
with the help from the Idaho State Department of Lands and the 
Bureau of Land Management.
    You can see from that group that we've had the diverse 
interest at the table working to make sure that we get the 
right solutions. For me one of the most gratifying outcomes has 
been to see this group transform itself from polarized camps 
into an extraordinary force known for its intense effort, 
calmity, trust and willingness to work toward a solution. They 
operated on a true consensus basis, spent thousands of hours, 
drove thousands of miles inspecting roads and trails, listening 
to and soliciting ideas from people from all walks of life who 
have in common deep roots and a deep interest in the Owyhee 
Canyon lands.
    While this whole process and its outcomes are indeed 
remarkable. One of the more notable developments is the 
memorandum of agreement between the Shoshone Paiute Tribes and 
the County that establishes government to government 
cooperation in several areas of mutual interest. I congratulate 
Nancy Eagan, the newly elected chair of the Shoshone Paiute 
Tribes on her election and today her swearing in.
    The Owyhee Initiative transforms conflict and uncertainty 
into conflict resolution and assurance of future activity. 
Ranchers can plan for subsequent generations. Off road vehicle 
users have access assured. Wilderness is established.
    The Shoshone Paiute Tribes know their cultural resources 
will be protected. The Air Force will continue to train its 
pilots. Local, State and Federal Government agencies will have 
a structure to assist their joint management of the region. All 
of this will happen within the context of the preservation of 
environmental and ecological health.
    This is indeed a revolutionary land management structure 
that looks ahead to the future. The status quo is unacceptable. 
The Owyhee Canyon lands, their inhabitants and cultures are 
truly a treasure of Idaho and of the United States. They 
deserve to have a process of conflict management and a path 
toward sustainability. I hope you'll join with me in ensuring 
their future.
    Now I want to speak just briefly to the folks back home, 
very directly, the folks in Idaho who are rightly concerns 
about a few provisions in this bill that are of great 
importance. I will continue to work with Senators Bingaman and 
Domenici and Wyden and Craig and their staff and others to make 
the policies and the funding that were so carefully negotiated 
in the Owyhee Initiative Agreement to become a reality. As 
promised 8 years ago, I regard the support of the Owyhee 
Initiative Workgroup and diverse interest that you represent as 
mandatory for my continued advocacy for this bill.
    Our hard work will continue after today's hearing. I'm 
committed to achieving the objectives that brought us together 
many years ago and that keep us together today. Thank you very 
much, Mr. Chairman.
    Senator Wyden. Thank you, Senator Crapo. Listening to you 
my sense is that it is hard to imagine there's an Idahoan out 
there who hasn't been given the opportunity to participate. I 
commend you for reaching out in that way. You've obviously made 
a great deal of progress.
    You don't make all this progress by osmosis. You do it by 
working with people. Having worked with you in the past, I know 
that's your trademark. I commend you for all your efforts.
    I'm not going to have any questions of either Senator 
Bennett or Senator Crapo. We do look forward to you all sitting 
in, as you've indicated you'd like to do. But let me recognize 
Senator Barrasso for his opening statement and then Senator 
Craig may have comments or further questions he'd like to make.
    Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
don't have any questions for our witnesses either, but I do 
want to welcome both Senator Crapo and Senator Bennett. I know 
that each of you has a bill that is very important to you. 
These two bills have been in Congress a long time and I'm sure 
that each of you would be pleased to have them move forward in 
a timely manner.
    I understand and appreciate the painstaking work that goes 
into meeting with stakeholder groups in your home State to 
prepare these bills. It's important for me as a Senator to, 
when I look at this kind of legislation, that it be tailored to 
the specific, local needs. Mr. Chairman, I just show great 
deference to the home State Senators who work through those 
local issues.
    So I welcome both of you here. Also folks who are going to 
be visiting with us from the Department of Interior and the 
U.S. Forest Service and others from Idaho and Utah who are 
going to testify today. So with that, Mr. Chairman, thank you 
very much.
    Senator Wyden. Thank you, Senator Barrasso.
    Senator Craig.
    Senator Craig. A clarification for Senator Bennett. You are 
talking about Washington County, Utah and not Washington 
County, Idaho.
    Senator Bennett. That is correct.
    Senator Craig. Thank you because Dr. Gibson and I grew up 
in Washington County, Idaho and we want to make sure that's 
clear.
    Senator Wyden. There's Washington County, Oregon. It's 
almost obligatory for a western State to have Washington 
County.
    [Laughter.]
    Senator Craig. Absolutely.
    Senator Bennett. Washington County, Utah is the fastest 
growing county in the State, has been for a half dozen years or 
more. For a good portion of that of that half dozen years, the 
fastest growing county in the country. That's why it's 
essential that we get this thing done before it completely gets 
out of control.
    Senator Craig. Thank you. I want to thank my colleague, 
Mike Crapo for recognizing the Shoshone Paiute Valley 
Reservation. I did not in my opening comments. They played a 
very valuable role as you've mentioned.
    Mr. Chairman, they still--this is an unbelievable big chunk 
of property if you look at the big map and that it borders the 
State of Nevada and Oregon. So it's one of those that has 
multiple interests across State lines as a region and an 
ecosystem that I think is important. Thank you.
    Senator Wyden. Thank you both. We'll excuse you. Please 
come on up and sit with us.
    Our next panel, the Administration panel, Julie Jacobson, 
Deputy Assistant Secretary with the Department of the Interior. 
Joel Holtrop, Deputy Chief, National Forest System.
    I'm going to repeat the request I made last week. It has 
varying degrees of success. We will put your prepared remarks 
into the hearing record. Every word of your prepared remarks 
will go into the hearing record and if you could perhaps just 
summarize some of your key concerns that would be very helpful.
    Ms. Jacobson, welcome.

 STATEMENT OF JULIE JACOBSON, DEPUTY ASSISTANT SECRETARY, LAND 
      AND MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Jacobson. Thank you for inviting me to testify on S. 
2833, the Owyhee Public Lands Management Act and S. 2834, the 
Washington County Growth and Conservation Act. These bills seek 
to resolve a wide range of public land management issues and 
opportunities on lands managed by the Bureau of Land Management 
in Owyhee County, Idaho and Washington County, Utah. Both bills 
are the results of years of intense effort by Utah's and 
Colorado's--and Idaho's Congressional delegation, local 
governments and public lands to reach consensus on difficult 
issues.
    The Administration respects these efforts and supports both 
bills with modifications to the formula for distributing the 
proceeds from any land sale to ensure an appropriate share is 
returned to Federal taxpayers. We recommend some other specific 
modifications to both bills in our full testimony and look 
forward to working with the sponsors and the committee. I'll 
briefly summarize the major provisions of both bills.
    S. 2833, the Owyhee Public Land Management Act is the 
product of nearly a decade of work to find solutions to resolve 
Owyhee County public land issues. Senator Crapo deserves 
recognition for his commitment to this effort. S. 2833 
designates over a half million acres of wilderness and releases 
nearly 200,000 acres of wilderness study. It also designates 
more than 315 miles of wild and scenic river segments.
    S. 2833 provides for the voluntary relinquishment of 
grazing permits to the Secretary for authorized grazing on 
lands with any areas designated as wilderness. Under the bill 
the Secretary is required to accept the donation of those 
permits and is required to permanently retire the allotments. 
Grazing is a compatible use within wilderness and there is a 
long history of legislation accommodating grazing within 
wilderness designation. To address these issues the BLM is 
committed to working with the committee and the sponsors within 
our existing authority.
    Section Six provides for the sale of lands identified for 
the disposal within the Boise District and the use of those 
proceeds for the acquisition of private lands from willing 
sellers within or adjacent to the wilderness designated by this 
bill. We note that all such sales and acquisitions will be 
undertaken consistent with applicable laws including FLTFA and 
will be subject to standard appraisals. We support S. 2833 and 
would like the opportunity to work with the sponsors and the 
committee to address some specific issues raised in our full 
testimony.
    S. 2834, the Washington County Growth and Conservation Act 
is a result of years of work by the Utah Congressional 
delegation, in particular, Senator Bennett. Working with local 
governments and the public they have reached consensus on 
public land management in Washington County, Utah. The bill 
would designate a number of wilderness areas including nearly 
124,000 acres of wilderness within Zion National Park and 
approximately 138,000 acres to be managed by the BLM.
    In addition the bill would release 5,000 acres of BLM 
managed lands from wilderness study status and return them to 
the full range multiple uses. Titles III and IV establish the 
Red Cliff National Conservation Area and the Beaver Dam Wash 
National Conservation Area. The first NCA's for the State of 
Utah.
    Title V designates nearly 170 miles of the Virgin River and 
its tributaries within and adjacent to Zion National Park to 
the wild and scenic river system. Title VII provides for the 
disposal of up to 9,000 acres of public lands through sale at 
auction. The Department supports making public lands available 
for community growth where it is necessary and appropriate. The 
land disposal process in 2834 is consistent with this objective 
and we support its inclusion. The majority of these proceeds 
from these sales are to be used to acquire lands within 
Washington County from willing sellers within the special areas 
designated by the bill.
    We support S. 2834 and the efforts of Senator Bennett and 
so many others in Utah. As with S. 2833 we would like the 
opportunity to work with the committee and the sponsors to 
address specific concerns. Thank you for the opportunity to 
testify.
    [The prepared statements of Ms. Jacobson follow:]
Prepared Statement of Julie Jacobson, Deputy Assistant Secretary, Land 
          and Minerals Management, Department of the Interior
                                s. 2833
    Thank you for inviting me to testify on S. 2833, the Owyhee Public 
Lands Management Act of 2008. This bill seeks to resolve a wide range 
of public land management issues and opportunities on lands managed by 
the Bureau of Land Management (BLM) in Owyhee County, Idaho. It is the 
result of years of intensive efforts by the Idaho delegation, and 
particularly Senator Crapo, working with local governments and the 
public to reach consensus on difficult issues in the spirit of 
cooperative conservation. We respect the resolution of local land use 
conflicts in this matter, and support the bill with modification of the 
formula for distributing the proceeds from any land sales to ensure 
that an appropriate share of the proceeds is returned to the Federal 
taxpayers. We would like to work to address this, and other areas of 
concern, with the sponsor and the Committee.
Background
    Owyhee County encompasses over 7,600 square miles of the 
southwestern corner of Idaho. It is the homeland of the Shoshone-Paiute 
people and encompasses the Duck Valley Reservation. With a population 
of just over 11,000, it is a sparsely-peopled land where magnificent 
canyons, rushing rivers, and wide-open skies dominate the landscape. 
Ranching is the traditional and predominant economic activity 
throughout Owyhee County.
    In 2000, the Owyhee County Commissioners invited a number of 
interested parties to begin discussions with an eye toward resolving a 
wide range of natural resource issues in the County. Innumerable 
meetings, conversations, and dialogues ensued. Over time, this effort 
included representatives from many interests within the County, 
including local government officials, tribal representatives, ranchers, 
conservationists, recreationists, and others.
    The legislation before this Committee, S. 2833, is an effort to 
realize those efforts. Senator Crapo deserves recognition for his 
commitment to working toward collaborative solutions in the spirit of 
cooperative conservation and proposing this legislation to help resolve 
Owyhee County's public land issues.
Owyhee Science Review and Conservation Center
    Section 3 of this bill requires the Secretary of the Interior to 
establish the Owyhee Science Review and Conservation Center in Owyhee 
County, Idaho. The stated intention of the Center is to conduct 
research projects to address natural resources management issues as 
they affect public and private rangelands in Owyhee County with a goal 
of providing information for improved rangeland management.
    We do not oppose the establishment of this Center; however we are 
concerned about the ongoing costs of establishing and operating such a 
Center. We urge the Committee and the sponsor to consider making 
section 3 subject to adequate appropriations.
Wilderness and Wild & Scenic Rivers Designations
    The Department of the Interior supports the Wilderness and Wild and 
Scenic River designations in the bill, subject to adjustments in 
boundaries and management language as is routine in such proposed 
designations. In general, the Department supports the efforts of 
Congressional delegations to resolve wilderness issues in their states. 
Congress has the sole authority to designate lands to be managed as 
wilderness and we have repeatedly urged that these issues be addressed 
legislatively.
    Section 4 of S. 2833 designates as wilderness 517,128 acres in six 
separate areas and releases approximately 198,073 acres from WSA status 
and will return these lands to the full range of multiple public uses 
authorized by the Federal Land Policy and Management Act (FLPMA). The 
Department generally supports the designations and releases proposed by 
the legislation and would like the opportunity to work with the sponsor 
and the Committee on possible minor boundary adjustments to ensure 
efficient manageability.
    The areas identified to be designated as wilderness include: Big 
Jacks Creek Wilderness, Bruneau-Jarbidge Rivers Wilderness, Little 
Jacks Creek Wilderness, North Fork Owyhee Wilderness, Owyhee River 
Wilderness and Pole Creek Wilderness. These proposed wilderness areas 
contain beautiful and remote desert landscapes. The terrain within the 
proposed wilderness is diverse, ranging from deep river canyons to vast 
sagebrush and grassland plateaus that provide habitat for sage-grouse, 
pronghorn antelope, bighorn sheep, songbirds, raptors, and numerous 
rare plant species. The river canyons are spectacular. Many are more 
than 1,000 feet deep, nearly twice as deep as the Washington Monument 
is tall. Rivers meander for hundreds of miles through southwestern 
Idaho and form what may be the largest, most unaltered, desert region 
remaining in the continental United States.
    Section 5 would designate more than 315 miles of waterways as 
segments of the Wild and Scenic Rivers System. These river segments, 
ranging from 3/10 of a mile to over 67 miles, would be established on 
16 different rivers and creeks including the Owyhee, Bruneau, and 
Jarbidge Rivers. As with wilderness, it is the prerogative of the 
Congress to make determinations for additions to the Wild and Scenic 
River System and we generally defer to the consensus of individual 
congressional delegations while providing input on manageability and 
potential conflicts.
    The proposed additions to the Wild and Scenic River System are 
rugged, isolated, and unique. This region, the Owyhee Uplands, is 
unlike any other desert region in the United States because it is 
dissected by hundreds of miles of free-flowing rivers. The rivers begin 
in the mountains of northern Nevada and, flowing north, radiate like 
spokes across southwestern Idaho. Each river has cut a deep, 
magnificent canyon through alternating layers of black and red volcanic 
rock. Each river is also an oasis for wildlife, including bighorn sheep 
and large flocks of waterfowl. There are no paved roads along any of 
these rivers and only a few dirt roads provide limited access to these 
remote streams. The larger rivers, like the Owyhee and Bruneau, contain 
some of the most challenging whitewater in the United States. River 
enthusiasts come from around the country to float these rivers and 
experience some of the ultimate river adventures in the United States.
Relinquishment and Retirement of Grazing Permits
    Section 4(b)(3)(D) of S. 2833 provides for the voluntary 
relinquishment of grazing permits or leases by permittees to the 
Secretary of the Interior for authorized grazing on BLM-managed lands 
within areas designated as wilderness by S. 2833. Under the bill, the 
Secretary is required to accept the donation of those permits or leases 
and is required to permanently retire the allotments covered by the 
permits or leases from grazing. Partial relinquishment and congruent 
retirement of allotments is also provided for under this subsection.
    The BLM believes that grazing is a compatible use within wilderness 
and there is a long history of legislation accommodating grazing within 
wilderness designations. The BLM is also concerned about retiring 
grazing permits. Were it not for the Congressional acknowledgement of 
the choice of individual permittees, and the rigor of the collaborative 
process underlying these designations, BLM could only retire grazing 
permits through land use planning processes. However, the BLM also 
recognizes the value of working cooperatively and collaboratively with 
local stakeholders to fulfill its multiple-use mission on BLM lands. 
The BLM is committed to working with the Committee, the sponsor, and 
stakeholders in the spirit of cooperative conservation within our 
existing authority.
Disposal and Acquisition of Land
    Section 6 of S. 2833 provides for the sale of lands identified for 
disposal within the Boise District of the BLM and the subsequent use of 
those proceeds for the acquisition of private lands from willing 
sellers, within or adjacent to the wilderness areas designated by this 
bill. Specifically, section 6(a) authorizes the sale of lands 
identified for disposal prior to the date of enactment of the 
legislation. The proceeds from any such sales taking place after 
January 1, 2008, would be deposited in a special account and would be 
available for the acquisition of private lands identified on the maps 
referenced by the legislation or any other private lands within or 
adjacent to the wilderness designated by S. 2833. This authority 
expires at the end of 10 years or on the date when $8 million has been 
expended from the account, whichever happens first. Amounts remaining 
in the account upon termination would be transferred to the Federal 
Land Deposit Account authorized by the Federal Land Transaction 
Facilitation Act (FLTFA) and expended in accordance with FLTFA.
    The Department notes that all such sales and acquisitions would be 
undertaken consistent with applicable laws, including FLPMA, and would 
be subject to appraisals completed in accordance with the Uniform 
Appraisal Standards for Federal Land Acquisition and the Uniform 
Standards of Professional Appraisal Practice.
    In addition, the manner in which the proceeds from land sales are 
distributed requires significant modifications. As noted above, we will 
work with the sponsors to ensure that this bill returns an appropriate 
share of these proceeds to the Federal taxpayer, consistent with the 
Administration's proposed changes to the FLTFA. Our proposal would 
provide for a consistent approach to the distribution of land sales 
proceeds at the National level.
Additional Provisions
    Section 7 requires the Secretary to coordinate with the Shoshone 
Paiute Tribes in implementation of the Shoshone Paiute Cultural 
Resource Protection Plan and seek agreements with the Tribes to 
implement the plan in order to protect cultural sites and resources 
important to the Tribes. One provision of that plan includes a 
federally reimbursable law enforcement agreement with Owyhee County for 
services from the Tribes. The BLM and the Shoshone-Paiute Tribes have 
an excellent cooperative relationship and work together effectively on 
a wide range of public land management issues in southwest Idaho. The 
Administration supports and endorses BLM's continuing and expanding 
this cooperative relationship.
    Finally, section 8 requires the BLM to prepare travel management 
plans for public lands within Owyhee County. Providing for the wise 
management and balance of all modes of travel and user needs continues 
to be a priority for the BLM. The BLM is currently in the process of 
developing travel management plans throughout the West. We are 
committed to completing those plans with full public participation in 
Owyhee County and on all BLM-managed public lands. We would like the 
opportunity to work with the sponsor and the Committee to ensure this 
section provides for comprehensive travel and transportation management 
planning.
    We are concerned about the long-term costs of the bill not only to 
the Department of the Interior and the BLM but also to the Federal 
Treasury. Public expectations for large infusions of Federal funds to 
accomplish this bill's authorizations without a clear source of dollars 
could result in disappointment and frustrate local working 
relationships.
    Thank you for the opportunity to testify on this legislation. S. 
2833 is the result of years of intensive efforts by Senator Crapo and 
many interested parties. We applaud these efforts and look forward to 
working with the Committee and Sponsor to address the issues addressed 
above, as well as technical and conforming amendments. I will be happy 
to answer any questions that you may have.
                                s. 2834
    Thank you for inviting me to testify on S. 2834, the Washington 
County Growth and Conservation Act of 2008. This legislation is the 
result of years of exhaustive efforts by the Utah Congressional 
delegation, in particular Senator Bennett. Working with local 
governments and the public in the spirit of cooperative conservation 
they have reached consensus on difficult issues on a wide range of 
public land management issues in Washington County, Utah. The 
Administration commends the resolution of land use conflicts in this 
manner, and supports the bill with modifications to the formula for 
distributing the proceeds from any land sales to ensure that an 
appropriate share of the proceeds is returned to the Federal taxpayers. 
While we note several areas of concern below, we are pleased with a 
number of significant improvements in this bill relative to the measure 
considered last Congress.
Background
    Washington County, Utah, located in the southwest corner of the 
State bordering Nevada and Arizona, covers nearly 2,500 square miles, 
and has been one of the fastest-growing counties in the United States. 
With a population of only about 10,000 in the mid-1960s, today 
Washington County has over 130,000 residents. At the same time, more 
than 75 percent of the County is Federal land, managed by the Bureau of 
Land Management (BLM), the U.S. Forest Service (USFS), and the National 
Park Service (NPS). In addition, the County includes lands held in 
trust by the Federal government for the Shivwits Indian Tribe and lands 
owned by the State of Utah. How those lands are managed is a critical 
issue for the people of Washington County.
    The Administration recognizes that the Sponsor has included a 
number of improvements from the earlier bill in the 109th Congress. In 
particular, we appreciate that the bill no longer directs BLM to 
dispose of lands, regardless of whether or not they had been identified 
for disposal.
Wilderness Designations
    The bill would designate a number of wilderness areas within 
Washington County, including approximately 123,743 acres of wilderness 
to be managed by the NPS within Zion National Park, approximately 
138,008 acres of wilderness to be managed by the BLM in 16 individual 
areas, and 2,643 acres of USFS wilderness. In addition, the bill would 
release 5,074 acres of BLM-managed lands from wilderness study area 
(WSA) status and would return them to the full range of multiple public 
uses authorized by the Federal Land Policy and Management Act (FLPMA.)
    The BLM-managed lands that would be designated wilderness by S. 
2834 include areas of rugged beauty, solitude, and important wildlife 
habitat. In the northeastern part of the County, the proposed Deep 
Creek and Deep Creek North wilderness areas consist of sheer canyon 
walls dropping to dramatic year-round rivers. Hanging gardens with 
wildflowers compete with a variety of raptors, including bald eagles 
and giant California condors, for the hiker's attention. The steep and 
rugged Hurricane Cliffs, which soar 2,000 vertical feet in under a 
mile, form the most outstanding feature of the proposed Blackridge 
Wilderness. The area is a magnet for hikers, hunters and photographers.
    In the southeast, Canaan Mountain's rugged topography includes 
peaks and colorful vermilion cliffs that form the southern gateway to 
Zion National Park. The scenic vistas available from these peaks 
increasingly attract recreationists.
    Within the Red Cliffs National Conservation Area (NCA) proposed by 
Title III of the bill lie the proposed Cottonwood Wilderness on the 
east and Red Mountain Wilderness on the west. The Cottonwood Wilderness 
and the adjoining Forest Service-managed Cottonwood Forest Wilderness 
form the spectacular ``front range'' between the City of St. George to 
the south and the Pine Valley Mountains to the north. Within minutes of 
downtown St. George, this area is prized for its primitive recreational 
opportunities. It lies within the Red Cliffs Desert Reserve, which has 
been Federally-designated as habitat to protect the threatened desert 
tortoise. It is also home to peregrine falcons and State-listed species 
such as the Gila Monster. The aptly named Red Mountain Wilderness 
provides a scenic backdrop to the communities of Ivins and Santa Clara 
and is a popular destination for local citizens.
    The bill also designates the Cougar Canyon and Slaughter Creek 
wildernesses located in the northwest corner of Washington County. 
Abutting the Nevada State line, these wilderness areas connect with the 
Tunnel Spring Wilderness in Lincoln County, Nevada, designated by 
Public Law 108-424. The area is dominated by rough terrain of wooded 
canyons and low mountain peaks. Just to the south of Cougar Canyon and 
Slaughter Creek the bill also designates Docs Pass Wilderness, which 
includes five miles of a perennial, free flowing stream within Beaver 
Dam Wash providing habitat to a wide range of native fish and large 
mammals. The Bull Valley Mountains within the proposed Docs Pass 
Wilderness are rugged pinyon-juniper woodlands.
    Wilderness resolution has been particularly challenging in the 
State of Utah, and we applaud the hard work of the sponsor and other 
members of the Utah delegation in reaching consensus on BLM wilderness 
designation and WSA release. Congress has the sole authority to 
designate lands to be managed permanently as wilderness, and we believe 
these areas are manageable as such. We would like the opportunity to 
work with the sponsor and the Committee on possible minor boundary 
adjustments to ensure efficient manageability.
    S. 2834 would also designate 123,743 acres of Zion National Park as 
wilderness. The lands proposed for wilderness designation are similar 
to those that were included in a proposal to recommend wilderness for 
the park that was originally transmitted to the President on June 5, 
1974, by then Secretary of the Interior Morton, and in the 2001 General 
Management Plan (GMP) for the park. The 1974 proposal recommended 
designation of 120,620 acres of the park as wilderness.
    Differences in the acreage figures between the 1974 transmittal and 
S. 2834 are the result of land acquisition in the park that has taken 
place since 1974, acquisition of water and grazing rights, and 
termination of non-conforming uses. Additional lands within the park 
consisting of approximately 9,000 acres, but located in Kane County, 
have also been recommended for wilderness designation and were included 
in the 1974 transmittal and the 2001 GMP. Although the Department 
supports the wilderness designation for the park included in S. 2834, 
we suggest that the bill be amended to include this additional, 
previously recommended wilderness so that all the lands proposed for 
wilderness designation within the park are designated.
    The bill designates as wilderness five small units of BLM-managed 
lands surrounding Zion National Park that vary in size from 32 to 663 
acres. These are logical extensions of the proposed wilderness areas 
within Zion National Park and are appropriate for wilderness 
designation. We recommend transferring all five of these small 
parcels--Beartrap Canyon Wilderness (40 acres), Goose Creek Wilderness 
(98 acres), Laverkin Creek (445 acres), Taylor Creek Wilderness (32 
acres) and Watchman Wilderness (663 acres)--to the National Park 
Service. Transfer of these lands to the park will improve management, 
reduce confusion for the public, and enhance the opportunities for 
visitor enjoyment.
National Conservation Areas
    Titles III and IV of S. 2834 establish the 44,695 acre Red Cliffs 
National Conservation Area (NCA) and the 68,083 acre Beaver Dam Wash 
NCA respectively. These would be the first NCAs in the State of Utah. 
Each of the NCAs designated by Congress and managed by the BLM is 
unique. For the most part, however, they have certain critical 
elements, which include withdrawal from the public land, mining and 
mineral leasing laws; OHV-use limitations; and language that charges 
the Secretary to allow only those uses that further the purposes for 
which the NCA is established. Furthermore, NCA proposals do not 
diminish the protections that currently apply to the lands. The Red 
Cliffs NCA and Beaver Dam Wash NCA proposals honor this spirit and the 
Department supports their designation.
    The proposed Red Cliffs NCA would overlay the existing Red Cliffs 
Desert Reserve which was designed as a part of the Washington County 
Desert Tortoise Habitat Conservation Plan (HCP) adopted in 1996. The 
HCP protects important desert tortoise habitat while also allowing 
continued development in St. George and nearby communities. As 
directed, the BLM has acquired nearly 8,000 acres of State and private 
inholdings within the Reserve from willing sellers.
    In addition to providing important habitat for the recovery of the 
desert tortoise and other listed species such as the Shivwits milkvetch 
and the Woundfin Minnow and Virgin River Chub, the proposed NCA is a 
popular area for recreationists. Over 130 miles of trails provide 
excellent opportunities for hikers, mountain bikers and equestrians 
while ensuring compatibility with the species' recovery. The boundaries 
of the proposed NCA include over 44,000 acres of BLM-managed land.
    The proposed Beaver Dam Wash NCA is nestled in the southwestern 
corner of Washington County which is a transition zone between three 
major ecosystems: the Colorado Plateau, the Great Basin, and the Mojave 
Desert. Such zones are characterized by diverse vegetative communities 
supporting a rich array of wildlife. Riparian species are found along 
the deeply incised channel of Beaver Dam Wash, which traverses the 
length of the proposed NCA to its confluence with the Virgin River. At 
higher elevations in the Beaver Dam Mountains, pinyon-juniper woodlands 
cover the slopes of steep-sided canyons. A forest of Joshua trees, the 
signature species of the Mojave Desert, dots the bajadas and valley 
floors. The lower elevations provide designated critical habitat for 
the threatened Mojave Desert Tortoise and other native species, such as 
Desert Bighorn Sheep, Gila Monsters, and Mojave Rattlesnakes. Current 
recreational uses within the area include technical rock climbing, 
hiking, horseback riding, wildlife viewing, and nature study, all of 
which are compatible with the designation.
Wild and Scenic River Designation
    The legislation amends the Wild and Scenic Rivers Act by adding 
approximately 165 miles of segments of the Virgin River and its 
tributaries within and adjacent to Zion National Park to the Wild and 
Scenic Rivers system. Seven of the segments are partially or wholly on 
BLM-managed lands while the remaining 32 segments are wholly within 
Zion National Park. All of the segments of the rivers that are 
recommended for designation as wild, scenic, or recreational rivers 
were found eligible and suitable for inclusion within the Wild and 
Scenic River System through the Zion National Park 2001 GMP and through 
the BLM St. George Field Office Resource Management Plan (SGRMP) 
completed in March 1999. The Department supports the designation of 
these segments.
Washington County Travel Management Plan
    Title VI directs the Secretary to develop a comprehensive travel 
management plan within three years of enactment of this legislation to 
include the designation of an OHV trail (the High Desert Off-Highway 
Vehicle Trail) in Washington County. The trail is to be established on 
existing roads and trails. This trail has the potential to be a 
significant draw for tourism and will allow visitors and residents to 
experience and enjoy their public lands while minimizing OHV use 
outside of designated trail networks. We support the development of 
both the trail and a comprehensive travel and transportation management 
plan for the County.
Land Disposal
    Title VII of S. 2834 provides for the disposal through sale at 
auction of up to 9,052 acres of public lands out of BLM management and 
into private ownership. The Department supports the general proposition 
of making some public lands available for community growth where it is 
necessary and appropriate. The land disposal process in S. 2834 is 
consistent with this objective and we support its inclusion.
    Under section 702 of S. 2834 the disposal of land would take place 
in three tiers. In the first tier, lands are to be disposed of within 
the first eighteen months after enactment of the bill, and include 906 
acres of BLM-managed land specifically identified on the map in 14 
separate, primarily small, parcels. These lands have been preliminarily 
identified by the BLM for disposal through the SGRMP. The local BLM had 
previously reviewed these lands for cultural and historic issues, 
threatened or endangered (T&E) species conflicts and other potential 
values that could preclude a conveyance out of Federal ownership, and 
believes that sale of these lands can be accomplished.
    In the second tier, the lands are to be sold at auction within a 
year of the completion of the sale of the tier one lands and completed 
by January 1, 2013. The tier two lands include approximately 3,146 
acres specifically identified in one small and two larger parcels. 
These lands have been preliminarily identified for disposal through the 
SGRMP. However, that identification was only preliminary. The local BLM 
has been made aware of conflicts on these lands, which include cultural 
resources as well as the presence of T&E species. Section 702(h) of the 
legislation anticipates these problems by allowing the Secretary of the 
Interior to place restrictive covenants on lands sold in order to 
protect the interests of the United States, including cultural or T&E 
species. It is unclear how this provision would be implemented, and it 
has the potential to be an administrative burden requiring the United 
States to enforce land restrictions in perpetuity.
    Finally, the bill provides for not more than an additional 5,000 
acres of BLM-managed land in the county to be sold. These lands must be 
identified for disposal by the BLM through its land use planning 
process and be in accordance with the Vision Dixie Land and 
Transportation plan. The Secretary and the County are to jointly select 
lands to be offered for sale and there is no specific timetable for 
their sale.
    Section 703 directs that 15 percent of the proceeds from the sales 
directed in section 702 be distributed to State and County entities, 
while 85 percent would be retained by the Federal government and 
deposited in a special account. Up to 9 percent of that account (or $15 
million whichever is less) is to be used for implementing the many 
provisions of the bill including planning and implementation of special 
designations as well as costs associated with the directed sales of 
lands. The remainder of the account is to be used to acquire from 
willing sellers non-Federal lands within Washington County that are 
within one of the special areas designated by the bill, or other 
environmentally sensitive land within the county.
    The manner in which the proceeds from land sales are distributed 
requires significant modifications. As noted above, we will work with 
the sponsors to ensure that this bill returns an appropriate share of 
these proceeds to the Federal taxpayer, consistent with the 
Administration's proposed changes to the Federal Land Transaction 
Facilitation Act (FLTFA). Our proposal would provide for a consistent 
approach to the distribution of land sales proceeds, at the National 
level.
    The Administration also does not support section 703(b), which 
allows the land sales account to earn interest. The Department of the 
Treasury strongly opposes such provisions, which effectively require 
the Treasury to borrow more funds to pay this interest.
Additional Provisions
    Title VIII establishes two parcels totaling 932 acres as aerial 
rights-of-way for reservoirs. Both of these parcels have been 
identified as potential reservoir sites through the BLM's land use 
planning process. Under Title V of FLPMA the BLM has the authority to 
grant rights-of-way for a wide variety of uses, including roads, 
powerlines, pipelines, communications sites and reservoirs. The 
applicants for these rights-of-way pay both administrative cost 
recovery fees as well as rentals. In the case of linear rights-of-way, 
rent is determined by a published schedule. Rent for aerial rights-of-
way is based on appraised value. Municipal utilities are charged rent 
if their principal source of revenue is customer charges.
    In general, the legislation appears to allow the BLM to charge 
administrative cost recovery for these grants; however it does not 
allow the BLM to charge rent. We believe it is appropriate that the 
legislation either allow for the payment of rent or provide for the 
outright purchase at appraised fair market value of these lands by the 
water district. In addition, the grants for use are made in perpetuity. 
If the rights-of-way are not provided for outright purchase, we believe 
it would be more appropriate to make these easements dependent on their 
actual use and approval by any State or Federal agencies and for the 
life of the facility so as to not permanently encumber the public lands 
for projects in the event they are never developed.
    Finally, Title IX of the bill requires the Secretary to carry out 
the management of plant and animal species so as to restore native 
rangelands within the County in each ``priority biological area.'' The 
bill further provides the Secretary with authority to make grants or 
enter into cooperative agreements to carry out and develop research 
relating to the restoration of these areas. The full intent of this 
Title is unclear, as is the definition of ``priority biological 
areas.'' We would like the opportunity to work with the sponsor and the 
Committee to further define this Title. We also have concerns that this 
new grant authority for one county could duplicate or conflict with 
existing DOI nationwide programs or activities.
    Thank you for the opportunity to testify on the Washington County 
Growth and Conservation Act. While there are a few provisions that 
cause us concern and that we believe should be modified (as well as 
some technical amendments), we support the cooperative conservation 
efforts of Senator Bennett and so many others in Utah to arrive at this 
point. I will be happy to answer any questions that you may have.

    Senator Wyden. Thank you very much.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
                     SYSTEM, FOREST SERVICE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to provide the Department's views 
on two bills today. My short comments this afternoon are a 
summary of my testimony. Just a few of the key points that I 
want to highlight.
    The Department supports S. 934 which would amend the 
Florida National Forest Land Management Act of 2003 to 
authorize the conveyance of 114 acres of land in Leon County, 
Florida, known as the Flea Market Tract. The bill also provides 
that proceeds from the sale of certain lands in the 2003 act 
may be used for Administrative improvements for units of the 
National Forest System within the State. The Flea Market Tract 
has been on the National Forest and Florida's potential 
exchange list for more than 10 years. It is a developed parcel 
of land in an urban area that lacks national forest character.
    Conveyance of this tract will reduce boundary management 
costs and allow for the purchase of high priority endangered 
species habitat, critical wetlands and potential recreation 
areas for the public. Both Leon County and the local 
environmental groups have offered support for the bill. 
Additionally the bill has bipartisan Congressional support and 
we view it as a win-win for all.
    S. 2834, Washington County Growth and Conservation Act of 
2008 pertains to various National Forest System, Bureau of Land 
Management and National Park Service lands in Washington 
County, Utah. My remarks focus on the provisions of the bill 
related to the National Forest System lands. The Department 
appreciates the Utah Congressional delegations efforts to 
resolve a wide range of long standing public land issues in 
Washington County. Enactment of this legislation would be a 
significant achievement that the people of Utah, their 
delegation and Congress could be proud of. We would like to 
continue to work with the committee on some of our concerns 
with the bill.
    S. 2834 would designate new wilderness areas including 
2,643 acres of National Forest System land on the Dixie 
National Forest as the Cottonwood Forest Wilderness prescribes 
certain management objectives in wilderness areas designated in 
the bill and would establish the High Desert Off-Highway 
Vehicle Trail. It would also direct the conveyance of 112 acres 
of land on the Dixie National Forest. The proposed wilderness 
area is scenic, rugged and has a rich diversity of narrow 
canyons providing excellent opportunity for solitude and 
primitive recreational experiences.
    It also possesses a special feature by virtue of its 
location adjacent to a desert tortoise reserve. The Dixie 
National Forest has determined that the area is suitable for 
wilderness. The bill includes some provisions regarding 
management of the areas designated as wilderness that are 
either unnecessary or would change the direction that would 
otherwise apply under the Wilderness Act of 1964.
    The Department prefers to follow the provisions of the 
Wilderness Act which allows for review of proposed uses of 
wilderness on a case by case basis. The Department's specific 
concerns about the wilderness sections of the bill are 
described in detail in my written testimony which I have 
submitted for the record. The Department likes the idea of 
working cooperatively to carry out wildlife management 
activities in wilderness areas.
    In fact we already have an agreement with the Association 
of Fish and Wildlife Agencies and the BLM that guides us in 
working cooperatively at the national, regional and local level 
to manage wilderness areas on national forest system and public 
lands. The Department does not oppose designation of the High 
Desert Off-Highway Vehicle Trail. We are concerned however, 
about the cost of repair and the reconstruction of existing 
trails that the designation could require.
    Title Ten of the bill would direct the Secretary of 
Agriculture to convey for fair market value 112 acres of land 
to a private land owner. While we support selling approximately 
21 acres, we do not support conveyance of any additional acres. 
We would like to continue to work with the sponsor and the 
committee, however, to resolve this concern.
    Mr. Chairman, thank you again for the opportunity to 
discuss both bills. I'm happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
                         System, Forest Service
    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to provide the Department's views on two bills on the 
agenda today. My testimony will be regarding S. 934 and S. 2834.
                            s. 934/h.r. 1374
    S. 934/H.R. 1374 would amend the Florida National Forest Land 
Management Act of 2003 to authorize the conveyance, for fair market 
value, of 114 acres (Tract W-1979; Flea Market Tract) in Leon County, 
Florida. Proceeds from the sale of Tract W-1979 are to be used 
exclusively for the purchase of inholdings located within the 
Apalachicola National Forest. The bill also provides that proceeds from 
the sale of any of the other parcels listed in the 2003 Act may be used 
for the acquisition, construction, or maintenance of administrative 
improvements for units of the National Forest System (NFS) within the 
State, except that the bill further directs that only proceeds from the 
sale of lands with improved infrastructure may be used for 
administrative improvements.
    The Department supports this bill but would like to work with the 
Committee and the bill's sponsors on amendments that focus the use of 
funds derived from sales in a manner that comports with the original 
Act. Tract W-1979 (Flea Market Tract) has been on the National Forests 
in Florida's potential exchange list for more than 10 years. It is a 
developed parcel of land in an urban area which lacks National Forest 
character. The conveyance of this tract will reduce boundary management 
costs and allow for the purchase of high priority endangered species 
habitat, critical wetlands, and potential recreation areas for the 
public.
                                s. 2834
    S. 2834 pertains to various NFS, Bureau of Land Management (BLM), 
and National Park Service (NPS) lands in Washington County, Utah. I 
will limit my remarks to the provisions of the bill related to the NFS 
lands and will defer to the Department of the Interior on provisions 
relating to the lands managed by the BLM and the NPS.
    S. 2834 would designate new wilderness areas, including 2,643 acres 
of NFS land on the Dixie National Forest as the ``Cottonwood Forest 
Wilderness,'' provide for trail maintenance, travel management 
planning, conservation projects, establish the High Desert Off-Highway 
Vehicle Trail, and prescribe certain management objectives in 
wilderness areas designated in this bill. It would also direct the 
conveyance of 112 acres of land on the Dixie National Forest to Mr. 
Kirk R. Harrison. The Department does not oppose S. 2834, although we 
have concerns regarding some of the bill's provisions.
    The proposed wilderness area is scenic, rugged, and has a rich 
diversity of narrow canyons providing excellent opportunity for 
solitude and primitive recreational experiences. It also possesses a 
special feature by virtue of its location adjacent to a desert tortoise 
reserve. In addition, the area is contiguous to BLM land that would be 
designated by the bill as the ``Cottonwood Canyon Wilderness.'' The 
Dixie National Forest has determined that the area is suitable for 
wilderness. However, in the revision of its forest plan, the Forest 
expects to propose that the area be managed as a ``Backcountry Area.'' 
This classification is similar to wilderness, but differs because it 
would allow a mix of motorized and non-motorized recreation to take 
advantage of the unique recreation opportunities that exist in the 
area.
    The Department requests a technical amendment to the bill in Title 
I--Wilderness Areas which is needed for clarification. The bill defines 
the term ``Secretary'' as the Secretary of the Interior. Accordingly, 
Section 102(a)(2) could be interpreted to mean the Secretary of the 
Interior would manage the area of NFS lands designated as the 
``Cottonwood Forest Wilderness'' by Section 101(a)(5). We suggest 
adding ``Agriculture'' to the language ``shall be considered to be a 
reference to the Secretary'' to clarify that NFS lands under the 
jurisdiction of Agriculture would continue to be managed by the 
Secretary of Agriculture.
    Section 102 of the bill includes some provisions regarding the 
management of the areas designated as wilderness that are either 
unnecessary or would change the direction that would otherwise apply 
under the Wilderness Act of 1964. The Department prefers to follow the 
provisions of the Act. The Department objects to the provisions in 
Section 102(l), which would permanently authorize the State's use of 
aircraft in wilderness for wildlife management purposes, and Section 
102(m), which would authorize wildlife water development projects. The 
Forest Service currently subjects proposed uses of wilderness to review 
on a case-by-case basis, allowing for cooperatively working with 
partners to balance use in compliance with the Wilderness Act.
    Section 102(n) would direct the Secretaries to enter into a 
cooperative agreement under which the State or designee of the State 
would carry out wildlife management activities in wilderness areas 
designated by this title. The Department does not oppose this 
provision. The Forest Service has signed a cooperative agreement with 
the Association of Fish and Wildlife Agencies and the BLM that outlines 
policies and guidelines for fish and wildlife management in wilderness 
areas, including protocols for managing nonconforming uses (titled 
``Policies and Guidelines for Fish and Wildlife Management in National 
Forest and Bureau of Land Management Wilderness'' and dated June 2006). 
It demonstrates a common understanding between the States and Federal 
agencies. The agreement also allows for similar State-specific 
agreements if needed. The Department believes that this national 
agreement provides a mutually agreed upon method to address management 
issues, and it would be our preference to develop any State agreement 
in accordance with it to maintain a consistent approach.
    Section 603 of the bill would direct the Secretary of the Interior, 
in coordination with the Secretary of Agriculture, to designate the 
High Desert Off-Highway Vehicle Trail based on existing roads and 
trails. The Department does not oppose the trail designation. However, 
the Department is concerned about the cost of repair and the 
reconstruction of existing trails that the designation could require. 
This work has not been a priority trail reconstruction project for the 
Forest.
    Section 1002 of the bill would direct the Secretary of Agriculture 
to convey, for fair market value, 112 acres of land to Mr. Kirk R. 
Harrison, a private landowner. The Department is concerned with this 
section of the bill. The lands in question are currently the subject of 
Small Tracts Act applications by Mr. Harrison. While we support selling 
Mr. Harrison approximately 21 acres, which would include his entire 
original applications for the Spring Field, Platt Field, and Reservoir 
Field land areas, we do not support conveyance of any additional acres. 
However, we would like to continue to work with the sponsor and the 
Committee to resolve this concern. In addition, we would like to 
suggest a technical correction for this section.
    Mr. Chairman, again thank you for the opportunity to discuss both 
S. 934 and S. 2834. I am happy to answer any questions you may have.

    Senator Wyden. Thank you. Thank you both. I just have a 
couple of areas I wanted to explore because I know colleagues 
wanted to get into these in greater depth.
    Ms. Jacobson, as I understand it on the Owyhee legislation 
revenues from the sale of lands the BLM has previously 
identified for disposal would be used to buy other lands in and 
around the wilderness areas. Now according to your testimony 
the Administration has an objection to this because you want 
and I quote, ``ensure that the bill returns an appropriate 
share of the proceeds to the Federal taxpayer.'' My question is 
if all of the proceeds from the sale of the BLM lands are being 
used to acquire other public lands wouldn't that be an 
appropriate return to the American people?
    Ms. Jacobson. Senator, I think that's a very good question. 
As you pointed out land sales and land acquisitions are a valid 
land management tool just as exchanges are. In this case the 
bill is a land sale and land purchase, not an exchange and we 
just would like to work with the committee, with your staff and 
with Senator Crapo's office to explore the issues surrounding 
the land sales and the finances from them.
    Senator Wyden. So if the same lands were conveyed as part 
of a land exchange would the Department be recommending that a 
portion of the value of the land involved be deposited in the 
treasury in effect be consistent with the position you lay out 
today?
    Ms. Jacobson. Senator, I don't know what the Administration 
would say on that specific point although your question is a 
very valid question.
    Senator Wyden. Ok. I'm going to have some questions that 
we'll need to have addressed from the Administration on the 
Washington County legislation when we have a chance to look at 
that further. But my only other one at this time, Mr. Holtrop, 
is I understand that the Forest Service proposed to exchange 
the tract of Forest Service land that would be sold under S. 
934, but that exchange recently was put on hold. Can you tell 
me what the challenge is there and why that exchange wouldn't 
adequately address the needs of the Forest Service in the 
county?
    Mr. Holtrop. Yes, that's the Florida National Forest piece 
of legislation.
    Senator Wyden. Right.
    Mr. Holtrop. There never has been an agreement to initiate 
a land exchange in that case. This tract of land has been 
identified as not having national forest character. It's 
surrounded on three sides by the city of Tallahassee and on the 
other side by a power line corridor and has difficulty in 
management for our purposes. Because of its location and the 
cost of managing it and property boundary management and those 
types of things, we did enter into some discussions as to 
whether an exchange was feasible given the likely high value of 
that parcel for urban purposes and the difficulty of 
identifying the number of parcels of land in a short period of 
time to arrive at an exchange this was the option that was 
preferred.
    Senator Wyden. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. To Ms. 
Jacobson, if I could, the Owyhee Wilderness bill has reference 
to fencing off areas of the wilderness. Could you talk a little 
bit about that in terms of the cost, how that's going to born, 
if there's going to be appropriations for it in addition to 
appropriations currently out there?
    Ms. Jacobson. At this time, Senator, we're unable to 
anticipate how much fencing would be required. So it's 
difficult for us to put a price tag on that.
    Senator Barrasso. Can you talk a little bit more about that 
just in terms of as you envision this whole project, what's 
involved in the process, the amount of time it would take, how 
many miles of fencing are you talking about?
    Ms. Jacobson. Again, it would depend on the actual acreage 
and livestock on or not on. So again it would be very difficult 
for us to determine at this time.
    Senator Barrasso. Would you expect regardless of the amount 
that there would be some cost incurred. How would you view that 
being dealt with?
    Ms. Jacobson. Yes, sir. Yes, Senator. The bill says the 
Secretary may require and what I would anticipate our local 
land managers doing is determining what--where a fence would be 
appropriate, what the cost were and then we have to make, as 
everybody does, decisions on where we allocate funds on the 
grounds and where we don't. So priorities would be set. But the 
bill says the Secretary may.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my friend.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much. Julie, 
you mentioned some concern about land sales and dollars and 
sense. One of my concerns about the language we are reviewing 
today lies in Section Six, land identified for disposal. It 
states proceeds from the sale of public lands under Section A, 
shall be deposited in a separate account in the treasury of the 
United States to be known as the Owyhee Lands Acquisition 
Account.
    Should I be concerned and should other Idahoans be 
concerned that such language could redirect Federal dollars 
away from the Boise Foothills Project?
    Ms. Jacobson. My understanding, sir, is that that wouldn't 
occur, that the land sales that are authorized in this bill 
that are consistent with our land use plans are in the Boise 
District and so they would not interfere with the bill--the Act 
that you referenced, Senator.
    Senator Craig. Trying to look at the location of the 
Foothills, but Boise, I guess they're not in that BLM District?
    Ms. Jacobson. That's my understanding, Senator.
    Senator Craig. I think that's right, ok. We'll look at that 
again with you, but thank you. I appreciate that offer.
    Mr. Chairman.
    Senator Wyden. Yes.
    Senator Craig. I concluded. Thank you.
    Senator Wyden. I thank my friend. My apologies to 
colleagues with the schedule now it's a juggle now and I 
appreciate my colleagues' indulgence.
    Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman. I have no 
questions at this point. I just want to again thank Julie 
Jacobson for the time she's put into helping us work through 
the issues on this legislation. Thank you.
    Senator Wyden. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you. I alike have no questions for 
the Administration.
    Senator Wyden. You're home free, folks. Thank you. Thank 
you for working with us.
    Our next panel. The Honorable James J Eardley, Chairman of 
the Washington County Commission, St. George, Utah. Bill 
Meadows, President of The Wilderness Society, Washington, DC, 
Dr. Chad Gibson, Owyhee Range Service, Wilder, Idaho, and Craig 
Gehrke, Regional Director of the Wilderness Society, Boise, 
Idaho.
    Gentlemen, welcome and thank you for coming, in some 
instances, long, long distances to be with the subcommittee. 
We'll make your prepared remarks a part of the hearing record 
in their entirety. Why don't we begin with you, Mr. Eardley? 
Welcome.

  STATEMENT OF JAMES J. EARDLEY, CHAIRMAN, WASHINGTON COUNTY 
             BOARD OF COMMISSIONERS, ST. GEORGE, UT

    Mr. Eardley. Ok. Thank you for that. Anyway, I'm grateful 
for the opportunity to be able to address this committee. Mr. 
Chairman, my name is Jim Eardley. I'm Chairman of the 
Washington County Commission. I'm here to express full support 
that our commission has for Senate bill 2834, the Washington 
County Growth and Conservation Act of 2008.
    We are able to be here today because we have engaged in an 
extensive planning effort that has involved productive 
discussions for a broad base of stakeholders. Compromise has 
been necessary because of either ailments of this legislation 
that gives us discomfort. But the overall importance of Senate 
bill 2834 overrides the firstly important items that many of us 
had to give up to create this final bill.
    I'd like to thank those stakeholders that have been 
involved for their willingness to collaborate. I certainly want 
to take a few minutes and thank Senator Bennett and Congressman 
Matheson for their help and support through this whole process 
over these past few years. It is important that you understand 
that Senate bill 2834 is about getting something done.
    For the first time in Utah we have managed to get the right 
people to the table who possess a significant amount of courage 
to address and a grasp of the big picture to finally be 
successful. I believe we have finally reached a point we are 
making progress. It's far more important for us to move forward 
on this than it is to maintain unyielding positions.
    As has been stated by Senator Bennett, we are experiencing 
tremendous growth in Washington County. It is currently the 
fifth fastest growing county in the United States, up from the 
year 2006, it was the No. 1 fastest growing county in the 
United States. We currently are the fastest growing 
metropolitan area in the United States.
    Our county is about 1.5 million acres. Eighty-four percent 
of that acreage is under either State or Federal ownership with 
15 to 16 percent being owned privately. There's really no 
practical way for us to separate public land use issues from 
private land use issues. One certainly impacts the other and 
the effect can be rather dramatic.
    This legislation is part of a larger effort to address 
these issues. Washington County began several years ago with a 
comprehensive land use planning project that involved many 
stakeholders in a working group setting, State, Federal, land 
managers sat at the table in advisory roles offering valuable 
insight and technical advice regarding management challenges 
and potential solutions. The county then engaged in a county 
wide growth planning process called Vision Dixie.
    This project involved over 3,000 of our citizens at a 
variety of meetings held throughout the community. Those 
findings have been validated through polling activity as well 
as online input. We have formed what we refer to as guiding 
principles.
    Vision Dixie Guiding Principles include maintaining the 
quality of air and water, conserving our precious water, 
protecting our unique signature landscape, preserving our 
agriculture ranching heritage, preserving open space, creating 
connectability through systems of roads and trails, creating 
improving our transportation infrastructure, focusing on growth 
of our first and contiguous next. The objectives of Vision 
Dixie, overall objectives of this legislation are very similar 
to our land bill. To protect special place, enhance open space, 
develop trails, parks and accommodate accelerated growth.
    In fact except for legislative effort, Vision Dixie would 
never have taken place. The land sales element of S. 2834 not 
only provides tools to finally deal with the private in 
holdings within the Red Hills Tortoise Preserve. But 10 percent 
earmarked for the county allows us to accomplish the very thing 
described of to implement Vision Dixie in a very real way.
    It is not difficult to conclude that Vision Dixie process 
and legislation are separately connected. One cannot work the 
full benefit without the other. S. 2834 is an excellent balance 
between conservation, growth planning and administrative views 
to create an extraordinary blend of stakeholders, citizens, 
State and Federal managers, local leaders and Congressional 
delegation representatives. As I said we have other concerns 
which are outlined in written testimony that we'll continue to 
work on with Congress and in our delegation to resolve.
    Of utmost importance county wide access for public land 
users in the county a large number of RS 2477 assertions which 
make up the core of our county, public land transportation 
system. We have worked very hard to get to this point. There is 
much good that can be accomplished from the passage of S. 2834, 
not only for the citizens of Washington County, but for all the 
people to enjoy the beauty and diversity of our county. Thank 
you.
    [The prepared statement of Mr. Eardley follows:]
  Prepared Statement of James J. Eardley, Chairman, Washington County 
           Board of Commissioners, St. George, UT, on S. 2834
    Mr. Chairman and members of the Committee, my name is Jim Eardley, 
Chairman of the Washington County Board of Commissioners. I am here in 
full support of S. 2834, The Washington County Growth and Conservation 
Act of 2008. We are able to be here today because we have been engaged 
in an extensive planning effort which has involved productive 
discussions with a broad base of stakeholders. Compromise has been 
necessary. Because of that, there are elements of this legislation 
which give us discomfort. But the overall importance of S. 2834 
overrides those personally important items that many of us have given 
up in order to create a final bill, and I would like to thank all the 
stakeholders involved for their willingness to collaborate.
    I also wish to thank the entire Utah Congressional delegation for 
their support. I particularly want to thank Senator Bennett and 
Congressman Matheson for sharing our vision and then working to advance 
it here in the Congress. With their support, it has turned into the 
bipartisan effort you see today.
    It is very important for you to understand that S. 2834 is all 
about getting something done. For the first time in Utah, we have 
managed to get the right people at the table who possess a sufficient 
amount of courage and a grasp of the bigger picture to finally be 
successful. I'm sure you know something of the volatile nature of 
public land issues in our state, much of which has played out here in 
the halls of Congress like scenes from a Greek tragedy, with few 
positive results. But I believe we have finally reached a point where 
making progress is more important than holding to some rigid, 
unyielding position.
    I'm grateful for that. Utah land management issues have too long 
been twisting on the winds of rhetoric, contention, senseless 
positioning, and fruitless debate. This legislation represents a new 
day in Utah public land deliberations. The success of S. 2834 will 
usher in a new era of problem solving and resolution--something which 
is especially important to those of us who are closest to the public 
lands and most impacted by management decisions.
    Washington County is experiencing tremendous growth. The U.S. 
Census listed us as the fifth fastest growing county, and the fastest 
growing metropolitan planning organization, in the country. Each month, 
around a thousand new residents arrive in Washington County, along with 
tens of thousands of visitors from all over the world, drawn by the 
wonderful natural beauty of the land, the warm climate, and the diverse 
recreational opportunities.
    Washington County is just over 1.5 million acres, more than 29% of 
which is currently under some form of special, restrictive management, 
including protective habitat for twelve different threatened or 
endangered species. Our legislation would add to that number of 
specially-designated lands. Over 84% of our land is in Federal or State 
ownership, leaving just over 15% of the total land area to accommodate 
the heavy demands of growth and expansion.
    It is important to note that there is no way to separate public 
land issues from private land issues in a county like ours. Decisions 
we make in our city and county meetings can seriously increase the 
burden carried by federal land managers. And, conversely, decisions 
made by you here, and by state and federal land managers can greatly 
impact our lives as local citizens and leaders.
    If we plan poorly or fail to address growth responsibly, the 
impacts on adjacent public lands can be dramatic. On the other hand, we 
cannot plan properly without taking into account the continual impacts 
created by having large tracts of public lands next to us.
    For example, in 2005 and again in 2006, wildfires burned out of 
control, eventually covering nearly one-fourth of the County, with 
resulting impacts on grazing, watershed damage, erosion, and so forth. 
We also experienced devastating floods which left many stranded, some 
homeless, and property damage in the tens of millions of dollars. The 
origin of all these events was on our public lands.
    The citizens of Washington County continue to be affected by these 
and other events, and, combined with ever-changing management 
strategies and ever-growing proposals for special forms of management, 
the impacts on local officials, planners, and land-users can be 
terrific.
    This legislation is part of a large effort to address these issues 
in Washington County. I would like to make you aware of the extensive 
planning, collaboration, and citizen involvement that has brought us to 
this point. We began several years ago with a Comprehensive Land Use 
Planning Project which involved many stakeholders in a working group 
setting, examining and discussing the many public land challenges in 
Washington County. State and federal land managers sat at the table in 
advisory roles, offering invaluable insight and technical advice 
regarding management challenges and potential solutions.
    As an extension of that first effort, the County then engaged in a 
county-wide growth planning process, which we called ``Vision Dixie''. 
Vision Dixie is a comprehensive growth planning effort modeled after 
the Envision Utah process used in some of the major communities on the 
Wasatch Front and in other areas of the of the country with great 
success.
    This project involved over 3000 of our citizens, as well as 
representatives from many stakeholder groups, in creating a county-wide 
footprint for growth. Some of the results of this process were quite 
predictable, some were a little surprising, but all were guided and 
developed by the many citizens and stakeholders who participated. In 
the end, a set of visionary ``Guiding Principles'' were created, which 
will guide the County and all the municipalities in directing and 
controlling the manner in which we grow in the future. I have included 
a copy of our ``Dixie Principles'' with my written testimony.
    Some of the elements of Vision Dixie include:

  <bullet> Maintaining the quality of our air and water
  <bullet> Conserving our precious water
  <bullet> Protecting our unique ``signature'' landscapes
  <bullet> Preserving our agricultural and ranching heritage
  <bullet> Preserving our open spaces
  <bullet> Creating ``connectability'' through a system of trails
  <bullet> Greatly improving our transportation infrastructure
  <bullet> Focusing growth inward first, contiguous next

    The objectives of Vision Dixie and the overall objectives of this 
legislation are very similar--to protect our special places, enhance 
open space, develop trails and parks, and accommodate accelerated 
growth. In fact, except for this legislative effort, Vision Dixie would 
never have taken place. The land sales element of S.2834 not only 
provides the tools to finally deal with the private in-holdings within 
the Red Hills Desert Tortoise preserve, but the 10% earmarked for the 
County allows us to accomplish the very things described above, and to 
implement the Vision Dixie vision in a very real way.
    It is not difficult to conclude, then, that the Vision Dixie 
process and this legislation are inseparably connected. The legislation 
empowers, the growth planning process directs, and one cannot work to 
its fullest benefit without the other. S.2834 is an excellent balance 
between conservation and growth planning, and the methods we have used 
to create it have been an extraordinary blend of stakeholders, 
citizens, state and federal managers, local leaders, and congressional 
delegation representatives.
    I'm not sure I can adequately define the importance of these two 
efforts to the future of Washington County in the five minutes I have 
been given. I also believe that I cannot emphasize enough the 
possibilities this legislation creates in finally resolving public land 
management issues across the state. Clearly, it is very important that 
we pass S. 2834.
    As I mentioned before, there has been a great deal of compromise on 
many levels to reach this point, and Washington County has some 
concerns about several elements of the legislation to which I would 
like make reference.
    First, county-wide access for all public land users is of critical 
importance, and the County has a large number of RS 2477 assertions 
which make up the core of our county public land transportation system. 
Some of these roads may be impacted by this legislation, and the County 
would like the opportunity to work with Senator Bennett and Congressman 
Matheson to continue to clarify and protect these important 
transportation issues and to assure that the County's interests are 
protected.
    Also, we have concerns regarding the land sales portion of the 
bill. There are a large number of private in-holdings, particularly in 
the Tortoise reserve, which have not been appropriately dealt with by 
the federal government. The proceeds from the land sales are intended 
to address this important issue. It is also the County's desire to do 
some of the critical conservation projects which have not had adequate 
funding. However, the limited number of acres remaining in this 
legislation after our negotiations is hardly enough to successfully 
resolve all the in-holding problems and accomplish the many 
conservation projects which demand attention. The County would like the 
opportunity to continue to work with the Delegation members on this 
matter as well.
    The County is also concerned about some of the language regarding 
the establishment of the National Conservation Areas, and would like to 
continue to work with the Delegation members to resolve these concerns. 
We would like to be sure the NCAs accomplish the purposes for which 
they are being created, while protecting historic uses.
    Summarily, we have worked very hard to get to this point, and there 
is much good to be accomplished with the passage of S. 2834, not only 
for the citizens of Washington County, but for all people who enjoy the 
beauty and diversity of our public lands. But, just as important, it 
establishes a format for resolving these contentious issues on a much 
broader scale, and could lead to similar collaborative efforts across 
the West. We strongly urge you to support this legislation. Thank you.

    Senator Wyden. Mr. Eardley, thank you and thank you for 
your presentation.
    Mr. Meadows.

  STATEMENT OF WILLIAM H. MEADOWS, PRESIDENT, THE WILDERNESS 
                            SOCIETY

    Mr. Meadows. Mr. Chairman and members of the subcommittee, 
my name is Bill Meadows and I'm President of The Wilderness 
Society. I thank you for the opportunity to testify on behalf 
of the Washington County Growth and Conservation Act of 2008. I 
first want to thank you, Mr. Chairman, for your leadership on 
wilderness in the Mount Hood Wilderness and Copper Salmon 
Wilderness, really great efforts. You know The Wilderness 
Society fully supports that work and applaud you for that 
leadership.
    Senator Wyden. We thank you for your support of Mount Hood 
and Copper Salmon and by God, by next wilderness day we're 
going to have those law.
    Mr. Meadows. We'll celebrate with you. Senator Crapo, it's 
a pleasure to be here at a time when we're talking about Owyhee 
Canyon legislation, too. So thank you for that.
    It's particularly auspicious, as Senator Wyden noted, that 
we're together on the anniversary of Earth Day. I was 
privileged during most of my working life at The Wilderness 
Society to work a few doors down from Senator Gaylord Nelson, 
the founder of Earth Day, who spent his last 25 years working 
as an esteemed counselor for The Wilderness Society. Senator 
Nelson used to say that our public lands in this country are 
the greatest gift that every American receives at birth. That 
gift to all of us is no where greater seen and envisioned than 
the beautiful Red Rock Country in Utah that we discuss today.
    I've submitted a written statement for the record that 
addresses this legislation in more detail. But I would like to 
summarize the views of my organization and then will be happy 
to take questions from the committee. As many on this committee 
know wilderness protection in Utah has a long and contiguous 
history.
    Although not the bill The Wilderness Society would write, 
this bill is a product of good faith efforts by many diverse 
interests. We have some concerns as outlined in our testimony. 
But we believe that the legislation represents an opportunity 
to finally achieve lasting protection for some spectacular 
lands in Utah.
    First, I thank Senator Bennett for his diligent efforts on 
this bill. He has demonstrated real leadership keeping these 
diverse interests focused on what is possible. Many thanks also 
to Senators Bingaman and Wyden who have already devoted 
personal time and attention to the cause of protecting these 
wonderful landscapes. Also my thanks to Representative Matheson 
and staff, David Brooks, and Tyler Owens with whom we've worked 
closely for their leadership in developing this legislation as 
well.
    This legislation would designate as wilderness or national 
conservation areas about 380,000 acres of public land. This is 
a substantial amount of protection for a county that has been 
locked in stalemate over wilderness protection for decades. As 
part of the protection, 94 percent of the Bureau of Land 
Management Wilderness Study Areas in Washington County would 
become permanent wilderness.
    Included in these designations would be 190,000 acres of 
the 300,000 acres contained in inventory of BLM Wilderness 
quality lands prepared by the Utah Wilderness Coalition. About 
140,000 acres of these lands would be designated wilderness and 
50,000 acres of National Conservation Area. Much of this area 
has no effective protection to date. So this would be a 
significant gain in protecting the county's Federal lands.
    Among the outstanding areas that would gain wilderness 
protection are Cougar Canyon, Doc's Pass, Canaan Mountain and 
the Kolob Unit of Zion National Park. Protection for these 
areas would truly be cause for celebration. The National 
Conservation Areas would also provide protection for sensitive 
tortoise habitat. We know that it is the intent of Senator 
Bennett to protect these areas against inappropriate motorized 
vehicle use. We believe additional language needs to be 
inserted to accomplish that intent.
    Our most serious concern is with Title IX--Title VII of the 
bill regarding land disposal. We are much appreciative of the 
bill's recognition that identification of Federal land for 
disposal should only take place in the context of agency 
management planning and in accordance with current law. We also 
are appreciative that a large percentage of the proceeds from 
such sales would be dedicated to acquiring ecologically 
important lands within the county. This is a notable 
improvement over previous legislation because it would add high 
value conservation lands to the Federal estate.
    Our concern is with a portion of the proceeds from such 
sales that divert 10 percent of the revenues to the county's 
local government. Use of these funds is not limited to 
conservation purposes. It could be used for a variety of local 
projects including transportation infrastructure and water 
development. We believe strongly that our Federal public lands 
for the property of all taxpayers and are the birthright that 
ensures preservation and conservation of our most special 
places for generations to come.
    In the interest of time I will not detail the other 
suggestions we have included in our written testimony, but we 
believe that there are some changes in drafting that would 
better effectuate the intent of the drafters. I would like to 
close by reiterating what may be the most important point of 
all that the work that has already occurred on this bill 
represents a breakthrough in long polarized debate in Utah over 
land protection. While not perfect, I think this bill offers 
real and lasting protection for an important part of Southern 
Utah's public lands.
    Thank you again for the opportunity to testify. I'm happy 
to answer any questions.
    [The prepared statement of Mr. Meadows follows:]
  Prepared Statement of William H. Meadows, President, The Wilderness 
                          Society, on S. 2834
                              introduction
    Thank you for the opportunity to testify. I am Bill Meadows, 
President of The Wilderness Society, a non-profit conservation 
organization dedicated to preserving our nation's public land legacy, 
and with this bill I believe we have a real opportunity to do exactly 
that for the unique wild lands of southwestern Utah.
    Let me start by thanking Senator Bennett and his staff for the hard 
work that has gone into this legislation. They have spent countless 
hours listening to the concerns and recommendations from all interested 
parties, including significant time spent on the ground in Washington 
County examining a great many of the proposed wilderness areas.
    Let me also thank the members of the Subcommittee and Committee, 
and particularly Senators Bingaman and Wyden and their talented staff. 
Although the bill has only recently been introduced, the Committee has 
already shown a willingness to devote resources, including the time of 
the Senators themselves, to work on this important legislation in a 
productive way, recognizing the importance of America's public lands 
legacy to all Americans.
    As you know, S. 2834 is a complex public lands bill built upon 
years of effort that addresses a variety of issues in Washington 
County, Utah. Although not the bill The Wilderness Society would write, 
this legislation addresses a number of competing uses on public lands 
and is product of an effort carried out in good faith. Although we have 
some concerns as outlined in our testimony, we believe this legislation 
represents significant gains for America's public lands.
    While I will briefly address several titles of the bill, our most 
extensive expertise is on the Wilderness titles of the legislation; 
therefore, I will focus the majority of my testimony on that title.
              wilderness and other protective designations
    The legislation would designate as Wilderness or as National 
Conservation Areas about 380,000 acres of Bureau of Land Management 
(BLM), national forest, or national park lands. This is a substantial 
amount of protection for a county that has been locked in a stalemate 
over wilderness protection for decades. As part of this protection, 94% 
of the BLM Wilderness Study Areas (WSA) in Washington County would 
become permanent Wilderness; the areas that are released from WSA 
status are boundary adjustments in the Canaan Mountain and Red Mountain 
areas and one small study area in the Beaver Dam Wash. We believe this 
level of protection for WSA's should set a minimum standard for future 
wilderness bills in Utah.
    As part of this designation, 190,000 of the 300,000 acres contained 
in the inventory of BLM wilderness quality lands prepared by the Utah 
Wilderness Coalition and the citizens of Utah would receive an enhanced 
level of protection. Although this does not protect as much of this 
these lands as we would like, it includes about 140,000 acres that 
would be designated wilderness and about 52,000 acres that would be 
National Conservation Areas as discussed below. Much of this land 
currently has little effective protection, so this is a significant 
gain in protecting the federal land of Washington County. With this, a 
stalemate could finally be broken, bringing lasting protection to some 
of America's most wild and spectacular federal public lands.
    Some highlights of the areas and resources that would receive 
Wilderness protection:

  <bullet> Cougar Canyon and Doc's Pass: Situated in the very northwest 
        corner of Washington County, this remote and rugged area offers 
        outstanding opportunities for hiking, rock climbing, deer 
        hunting, and trout fishing. As its name suggests, the area is 
        prime habitat for mountain lions. The Wilderness designation 
        would ensure that a proposed reservoir and dam for the heart of 
        the area would not be developed.
  <bullet> Kolob Units: The six units that comprise the Kolob area are 
        logical extensions of the Kolob Terrace section of Zion 
        National Park. They are part of the integrated watershed, 
        wildlife habitat, and scenic terrain of the park, and are among 
        some of the most pristine, spectacular, and ecologically 
        significant lands in Utah.
  <bullet> Canaan Mountain: Peregrines, desert bighorn sheep, mountain 
        lion, coyote, bobcat are among the animals found in this 
        spectacular mountain unit. Though often overlooked by visitors 
        to Zion National Park, Canaan Mountain offers superb 
        opportunities for day hikes and backpack trips through its 
        sandstone plateau.

    As noted, in addition to the Wilderness designations the bill also 
would protect a total of about 113,000 acres of sensitive tortoise 
habitat as National Conservation Areas (NCAs), 52,000 acres of which 
are in the citizens' inventory of BLM wilderness quality lands. Of 
these two NCAs, the 68,000-acre Beaver Dam Wash National Conservation 
Area would protect the dazzling Joshua Tree forests of the southwest 
corner of the county.
    In order to realize true protection from inappropriate motorized 
use in this area, we understand that Senator Bennett and the County 
have agreed and intend that the citizens' inventoried wilderness areas 
in the NCA should be closed to motorized public use except for three 
roads totaling about three miles. However, there is no statutory 
language affording protection against motorized use in the current 
version of the bill. We understand that committee staff is exploring 
ways in which such protection could be written into the legislation 
ensuring that appropriate protection is made permanent. We believe this 
protection is important and should be made a part of the legislation.
    Finally, the bill would also protect 165 miles of rivers in the 
County as Wild and Scenic Rivers. We are most appreciative of the 
protections provided for these areas.
                         federal land disposal
    Title VII of the bill requires the sale of about 4,000 acres of 
public land that has been identified by the Bureau of Land Management 
as appropriate for disposal in the course of its management planning. 
It also provides for the sale of up to 5,000 additional acres of public 
land should such land be identified for disposal in accordance with 
current law at a later date. We are appreciative of the bill's 
recognition that identification of public lands for disposal should not 
be made outside of the management planning by the relevant agency and 
must be done in accordance with current law.
    Of most serious concern are the provisions of S. 2834 that earmark 
the disposition of the proceeds from these land sales in a manner 
inconsistent with current law. Proceeds from Federal land sales covered 
by the Federal Land Transaction Facilitation Act (FLTFA) currently 
remain as federal funds and generally go toward buying other land from 
willing sellers and making it part of the portfolio of federal land. 
Proceeds from the sale of the 4,000 acres that have been identified by 
BLM for disposal would be covered by FLTFA.
    The Washington County Growth and Conservation Act would depart from 
this equation by diverting 10% of sale revenues to the local government 
of Washington County. It further provides that 5% would be available to 
the state for the support of schools, in accordance with current law. 
The remaining 85% of the proceeds would go toward acquiring high 
priority ecological and wilderness lands within Washington County, less 
an amount earmarked for the administrative costs to BLM to implement 
the legislation (9% or up to $15 million).
    It is the 10% earmarked for the county that is of concern. Use of 
these funds is not limited to conservation purposes and could be used 
for a variety of local projects, including transportation 
infrastructure and water development. We understand and are sympathetic 
to the fact that Washington County, like virtually every county and 
state government, has spending needs that may not be fully funded. 
However, we believe strongly that our federal public lands are the 
property of all taxpayers and are a birthright that ensures the 
preservation and conservation of our most special places for 
generations to come. When disposal of those lands are appropriate, the 
resulting funds should remain the property of all Americans.
    At the same time, we are supportive of the provision that would 
commit 85% of the proceeds (less the 9% of primarily administrative 
costs) to acquiring ecologically important lands within the county. 
This is a significant improvement over previous legislation that did 
not dedicate this percentage to land acquisition. Adding high value 
conservation lands to the Federal estate is a significant benefit.
              other provisions on federal land management
    We appreciate that this bill no longer mandates that a right-of-way 
be granted for a water pipeline from Lake Powell. We do have some 
concern about its provision of other rights-of-way because, although we 
understand they are unrelated to the pipeline, they are given away in 
perpetuity without any compensation to the taxpayers.
    S. 2834 requires the BLM to identify one or more options for the 
placement of a ``northern transportation'' corridor in the County. We 
understand that Senator Bennett has agreed not to require any study of 
a transportation route through sensitive desert tortoise habitat. The 
current language needs work in order to more clearly effectuate this 
intent.
    S. 2834 generally would require the BLM to designate areas, roads, 
and trails where off-road vehicle use is permitted. We support the need 
for the development of a timely county-wide travel management plan 
conducted in accordance with all existing laws, including those that 
are intended to protect natural and cultural resources and the 
interests of all users of the area. We believe the intent of the 
drafters is consistent with our view, but that some refinement in the 
drafting may be required to effectuate this purpose. We also have 
questions about the intent of the provisions in Titles VII and IX that 
provide for funds to private entities for stated purposes. We would 
like to work with the interested parties to better understand this 
intent and ensure that if appropriate, it is carefully drafted.
    Additionally, we have suggestions that we believe would improve the 
drafting in a few other areas. We will be providing those suggestions 
to the sponsors and the Committee, and would appreciate the opportunity 
to continue to work together with the Committee as the bill is further 
refined.
                               conclusion
    The Wilderness Society believes S. 2834 represents a breakthrough 
in what has been a long-polarized debate in Utah over land protection. 
While not perfect as currently drafted, it presents a real opportunity 
to afford real and lasting protection for an important part of 
southwestern Utah's public land legacy. We appreciate the opportunity 
to testify and look forward to working with the Committee and the 
sponsors to fully achieve the promise inherent in this bill.

    Senator Wyden. Thank you, Mr. Meadows. Thank you for the 
advocacy you bring to this cause and on this day especially. We 
thank you.
    Dr. Gibson of the Owyhee Range Service, welcome.

 STATEMENT OF CHAD C. GIBSON, OWYHEE RANGE SERVICE, WILDER, ID

    Mr. Gibson. Mr. Chairman, I appreciate the opportunity to 
be here, committee members. We appreciate the opportunity to 
have this legislation heard and for me to provide some 
information in regard to that.
    I've been a member of the Owyhee Initiative Work Group 
since its beginning in 2001 as a representative of the Owyhee 
Cattlemen's Association. So I bring this information from that 
perspective. This initiative process provides an opportunity to 
deal with land use conflicts that have been around forever in 
regard to wilderness and wild and scenic rivers. But at the 
same time it addresses the issue of trying to maintain 
economically viable ranching, initiate preservation of tribal 
and cultural resources and maintain a significant opportunity 
for recreational use of this very sought after recreational 
area.
    The Association is supportive of the legislation as is 
indicated and have some issues with it, but the Association 
does support the legislation. The Association was initiated in 
1878 and this is probably one of the largest tasks that they 
faced in all of those years. The legislation and this effort is 
clearly not going to get rid of all of the issues, but it 
certainly provides a path forward that maybe gets them down to 
a manageable level.
    One of the issues is the establishment of the Owyhee 
Science Review that the Association believes is extremely 
important. It's intended as a means of assuring that scientific 
information is appropriately obtained, properly considered and 
applied. That's often an issue with scientific information 
getting into disputes. We recently spent 18 days in court over 
one of these.
    The process imposes no burden on the Department that's not 
already required. That is to provide information that's needed 
to conduct the review. It ensures that the review is conducted 
by independent scientists with specific knowledge of the issues 
in question. The intent is to provide sound science for 
everyone that's involved in and has an interest in resource 
management.
    While the scientific questions may be generated by issues 
that arise from Owyhee County, they certainly will have broad 
application in other areas. The Association believes that the 
wilderness areas that have been identified are the very best of 
the best and that they represent a very viable compromise in 
acres that are going to be preserved as wilderness and acres 
that are going to be released to other management, particularly 
areas that have special management needs.
    The same is true in regard to the wild and scenic rivers. 
They're issues there that have been on the books since the mid 
1970s and haven't been resolved. This is an opportunity to be 
able to do that.
    I think also of importance is the provision in the 
legislation to implement the Shoshone Paiute Cultural Resection 
Resource Protection Plan. It's been on the books for a number 
of years and has just not been implemented because the 
attention has not been given to it. The ever increasing visitor 
participation in the area either from folks that just don't 
know or from sometimes in the case of vandals the desecration 
of some of those sites has been well documented. I think 
recognition of that proposal or that plan and putting it into 
effect will be a great help to these special values and 
particularly to the tribe.
    I think in the interest of time perhaps I could be, better 
serve the committee by answering questions later on. So I'll 
conclude my statement now.
    [The prepared statement of Mr. Gibson follows:]
Prepared Statement of Chad C. Gibson, Owyhee Range Service, Wilder, ID, 
                               on S. 2833
    First I would like to thank the Committee for allowing this 
legislation to be considered and for allowing me to provide information 
at this hearing. I have been a member of the Owyhee Initiative work 
group since its beginning in 2001 as a representative of the Owyhee 
Cattlemen's Association and I offer the following comment from that 
perspective.
    The unique process known as the Owyhee Initiative was sponsored by 
the Owyhee County Commissioners, the Shoshone-Paiute Tribes and Senator 
Mike Crapo. The County and Tribes set forth the goal and issues they 
wished to have addressed, sought interested and willing participants 
and appointed diverse group of representatives from an equally diverse 
group of conservation, ranching / landowner and recreational interest 
groups (Owyhee Initiative work group). On paper it may have looked like 
an impossible task; however, a condition for appointment was a strong 
commitment to the assigned task. The resulting Owyhee Initiative 
Agreement resulted from a willingness of the participants to recognize 
and respect the views and beliefs of others and to seek common ground 
from where the assigned goal and issue could be addressed. The Owyhee 
Initiative Agreement resulted from a high level of commitment and trust 
among all participants and the patient unwavering support of the 
sponsors. Efforts such as the Owyhee Initiative provide a unique path 
for the replacement of conflict and gridlock with cooperative effort to 
achieve common interests.
    Owyhee County is sprawled over nearly 5 million acres and possesses 
a diverse landscape from small communities surrounded by intensive 
irrigated agriculture to extremely rugged and remote back country. The 
ranching community is dispersed throughout the County. Like many areas 
in the west the private land that support ranching operations occupy 
the most productive areas with water and other high resource values. 
Historically, ranching on these lands has maintained an open space 
landscape prized by residents and visitors alike for its benefit to 
wildlife as well as human use. The best hope for avoiding fragmentation 
through special use ownership is to maintain the opportunity for viable 
ranching use. While viable ranch operations cannot be guaranteed, land 
management that, at least, preserves the opportunity for success is 
essential for maintenance of a viable open space landscape.
    The Owyhee Initiative provides an opportunity to resolves land use 
conflict through the identification and designation of Wilderness and 
Wild and Scenic Rivers while preserving the opportunity for continued 
economically viable ranching, initiating active preservation of Tribal 
cultural resources and maintaining significant opportunity for diverse 
recreational use.
    Senate 2833 is the culmination of nearly 7 years of cooperative 
collaborative effort to resolve conflict and move past management 
gridlock in order to foster and allow progressive management of natural 
resources in Owyhee County.
    While the Owyhee Initiative Agreement imposes various commitments 
on the participants, some elements cannot become reality without 
Congressional Action. The Owyhee Public Land Management Act of 2008, S-
2833 contains the Congressional directives necessary to realize many of 
the most important elements of the agreement.
    I believe it is important to recognize the commitment and extensive 
effort of the Committee staff in the effort to develop this 
legislation. David Brooks has been especially helpful by committing the 
time needed to understand the issues and provide positive legislative 
solution. Frank Gladics has also been especially helpful with the 
process.
    I am here to express the Owyhee Cattlemen's Association support for 
the components and concepts addressed in this legislation. The OCA was 
first established in 1878 and perhaps has never engaged in an effort 
more important to the future of Ranching in Owyhee County. This 
legislation clearly will not resolve all conflict but does offer a 
positive path forward.
    The provision for establishment of the Owyhee Science Review and 
Conservation and Research Center represents a unique approach to 
combining the discovery of new information and application of new and 
known science.
    The Science Review is intended as a means of assuring that 
scientific information is appropriately obtained considered and 
applied. Independent peer review offers a unique opportunity to avoid 
disputes over the proper application of science that lead to management 
delay, gridlock and lengthy legal disputes. This process imposes no 
burden on the Department that is not already required. It assures that 
any review will be conducted by independent scientists with specific 
knowledge of the issues in question. The intent is to provide sound 
science based management guidance for all entities that have an 
interest in resource management. While the scientific questions 
proposed for review would originate in Owyhee County, the information 
gained from peer review would in many cases have much broader 
application.
    Where scientific information is lacking the Conservation and 
Research Center will provide an opportunity to coordinate and direct 
research activity to meet the most pressing scientific information 
needs. In addition the Center will provide a means to leverage and 
coordinate conservation programs to achieve much broader scale 
objectives than is now the case. The Center would also be in a position 
to seek private grants and matching funds to provide increased research 
and conservation program opportunity.
    I believe that the designation of wilderness includes the lands 
with the highest wilderness resource values within the county. The 
areas identified for wilderness and the areas identified for release 
from interim management were thoroughly investigated and evaluated and 
represent a very positive resolution of this issue.
    The application of wilderness management as well as the use of 
wilderness by users requires that boundaries be readily identifiable on 
the ground. A great deal of time was devoted to the identification of 
wilderness boundaries in a manner that allows them to be clearly and 
easily distinguished on the ground.
    The identification of additions to the Wild and Scenic Rivers 
System was a thorough process intended to assure that the additions 
fully represented the unique rivers and canyonlands in the area. At the 
same time the selection of proposed additions considered the avoidance 
of future use conflicts.
    The provision in the legislation to implement the Shoshone-Paiute 
Cultural Resources Protection Plan will allow the Tribes and the 
Department to go forward with a plan that has been on the shelf for a 
number of years. Increasing visitor use over ever wider areas of the 
County poses a growing threat to cultural sites and resources from 
vandals or simply uninformed users. Significant depletion of the more 
accessible cultural sites has already been documented. Official 
recognition and implementation of the Shoshone-Paiute Cultural 
Resources Protection Plan will assure much needed management of these 
special value resources.
    The legislation directs the Department to complete Recreational 
Travel Management plans for the Owyhee Front and for the remainder of 
the County within one year and three years respectively. The absence of 
such plans is detrimental to both the affected resources (soils and 
vegetation) and users who are unaware of the roads and trails that 
would most satisfy their expectations. Without appropriate plans the 
Department must fall back on generic ``existing road and trail'' 
designations. In such cases enforcement is not practical because 
neither the user nor enforcer knows which trails were in existence at 
the time of designation. Currently, new routes that are created almost 
daily become ``existing'' routes to the next user. Thus, many users who 
would not intentionally damage resource values if they were properly 
informed are a significant problem in the absence of proper travel 
management planning.
    In addition to proper travel management planning and public 
information, there is a need for adequate enforcement. While most users 
would, out of respect for the land, observe posted rules for travel 
use, some users need a more direct incentive. Unless adequate 
enforcement can be applied, travel management planning and public 
information will not solve the problem.
    Having stated the above, there remains some concern relative to the 
wording of the Act. Those concerns and recommendations for resolution 
are discussed below.
RE: page 8, lines 10-14
          SEC 4, (b) (3) (C) leaves an impression that it is necessary 
        to fence livestock out of wilderness areas to ``protect'' 
        wilderness values. However, the areas in question have been 
        grazed for well over 100 years and wilderness values remain in 
        tact. Thus, exclusion of livestock does not equate to 
        protection of wilderness values. The intent was that exclusion 
        of livestock from areas of certain wilderness designation could 
        ``enhance'' a wilderness experience simply by avoidance of 
        visitor encounters with livestock. It is my opinion and that of 
        the Owyhee Cattlemen's Association that the terminology should 
        be changed as indicated below.

            (C) FENCING.--The Secretary may construct and maintain 
        fencing around wilderness areas designated by this Act as the 
        Secretary determines to be appropriate to (strike) protect 
        (insert) enhance wilderness values.

RE: Page 8, lines 23-24 and Page 9, lines 1 & 2.
    The provision for the Donation of grazing permits or leases 
contains an inadvertent contradiction as to the treatment of the lands 
covered by a permit or lease. The termination language indicates that 
the donation of a permit of lease in its entirety would result in 
permanent closure of the land covered by the permit or lease. This 
language does not recognize that the land covered by the donated permit 
or lease may also be covered by another permit or lease that will 
remain in use (Common use Allotment). The language needed to rectify 
this issue is presented below.

          (ii) TERMINATION.--The Secretary shall terminate any grazing 
        permit or lease acquired under clause (i) to ensure a permanent 
        end to (strike) grazing on (insert) grazing use authorized by 
        the permit or lease on the land covered by the permit or lease. 
        **

RE: Page 9, lines 15-22.
    The following recommendation is to assure consistent terminology 
and avoid potential issues in regard to interpretation of inconsistent 
terminology.

          (II) AUTHORIZED LEVEL.--To ensure that there is a permanent 
        reduction in the (insert) authorized level of grazing on the 
        land covered by a permit or lease donated under subclause (I), 
        the Secretary shall not allow grazing use to exceed the 
        authorized level established under that subclause.
RE: Page 9, lines 23-24 and Page 10, lines 1-5.
    This section of the legislation provides for the acquisition of 
private land within the boundary of the wilderness areas designated by 
the Act. However, some of the private land offered for acquisition or 
exchange is not within the wilderness boundaries. In addition the 
language needs to provide a higher level of certainty that the 
Secretary will, at the least, offer to acquire land or interests in 
land (offered lands are depicted on appropriate maps) by purchase, 
exchange or donation. The certainty is needed in order for ranchers to 
adequately plan for reorganization of their ranch operations relative 
to expected changes in resource inputs. Ranch management decisions 
often have implication for future demands on capitol, labor and 
resources over the next 18 months or more. Uncertainty as to the 
availability of future capitol, labor and resources significantly 
disrupts if not precludes effective ranch planning and management.
    The Owyhee Cattlemen's Association believes that there are three 
elements needed in language in order to adequately address the issue of 
land acquisition. First, the legislation needs to recognize all of the 
land that has been offered for potential acquisition both within and 
outside of proposed wilderness. Second, the legislation needs to 
provide a greater level of certainty that Secretary will, at the least, 
offer to proceed with acquisition of the identified private lands. 
Third, there needs to be and increased level of certainty that the 
offer and completion of land acquisition will occur in a timely manner. 
To this end, the following language is offered as a guide to arriving 
at a workable and effective solution.
    Strike the language at page 10, lines 1-5 and insert the following:

          (A) IN GENERAL.--Consistent with applicable law, the 
        Secretary is authorized and directed to offer to acquire land 
        or interests in land as depicted on the map (insert appropriate 
        reference) by purchase, donation, or exchange.

    Insert the following at page 10 after subparagraph (B).

          (C) TIMING OF ACQUISITIONS--It is the intent of Congress that 
        the land purchase or exchange directed by this section be 
        completed not later than one year after the date of enactment 
        of this Act.
RE: page 22, line 2.
    This line refers to maps in section 4(a)(2) that show land 
identified as ``proposed for acquisition''. However, it appears that 
the cited section only refers to maps showing the boundaries of 
wilderness areas established under this act. This line needs to be 
amended with the appropriate map reference. Based on the recommendation 
above the reference should be (Section 4 (b) (4) (A).
    The Owyhee Cattlemen's Association again thanks the Committee for 
this opportunity and would like to express their great appreciation and 
sincere thanks for the enormous support of this effort by Senator Mike 
Crapo and his staff. The OCA is also greatly appreciative of the 
willingness of the Committee staff to work toward a positive outcome of 
this effort.

    Senator Wyden. We thank you and thank you for your good 
work.
    Mr. Gehrke, welcome.

 STATEMENT OF CRAIG GEHRKE, REGIONAL DIRECTOR, THE WILDERNESS 
                       SOCIETY, BOISE, ID

    Mr. Gehrke. Mr. Chairman and members of the subcommittee, 
thank you. My name is Craig Gehrke. I'm the Regional Director 
of the Idaho Office of The Wilderness Society.
    The Wilderness Society appreciates this opportunity to 
testify in support of passage of S. 2833, the Owyhee Public 
Lands Management Act of 2008. We are committed to working with 
Congress to ensure that the legislation is true to the intent 
of the Owyhee Initiative Agreement, an agreement to which The 
Wilderness Society was a participant and was developed in Idaho 
between conservationists, ranchers, Owyhee County elected 
officials, the Shoshone Paiute tribe and others. The Wilderness 
Society deeply appreciates the work done over the last several 
months by the majority and the minority staff of the 
subcommittee, Senator Crapo's staff and Senator Craig's staff 
on S. 2833. That work has produced legislation that reflects 
very important goals and objectives of the Owyhee Initiative 
Work Group.
    S. 2833 reflects the attempt by the Owyhee Initiative Work 
Group to provide protection for outstanding wild areas in 
Owyhee County while considering the lives with those who live 
and work there. Through wilderness and wild and scenic river 
designation, S. 2833 provides permanent protection for some of 
the wildest, most diverse landscapes in Southwest Idaho ranging 
from river canyons that are over 1,000 feet deep to vast 
expanses of sage brush and grassland plateaus that provide 
habitat for the sage grouse, pronghorn antelope, big horn 
sheep, song birds, raptors and numerous rare plant species. The 
river canyons in Owyhee County have been called the largest 
concentration of sheer-walled volcanic rhyolite and basalt 
canyons in the Western United States.
    White water river enthusiasts come from around the country 
to challenge these rapids on these rivers. This high desert 
sage brush and canyon country not included in existing 
wilderness areas in Idaho and is generally under represented in 
the National Wilderness Preservation System. All the areas 
proposed for wilderness in S. 2833 represent valuable additions 
to the National Wilderness Preservation System. It's great to 
see this picture up here. We look forward to see that it will 
be a great benefit in the State of Idaho when the Owyhee Canyon 
lands joins the ranks of Saw tooth and Hell's Canyon and other 
special areas in Idaho that receive permanent protection.
    The wilderness designation closes over 200 miles of vehicle 
carved routes through these wild areas and that represents one 
of the biggest threats to the wild places in Owyhee County. It 
allows for the permanent retirement of voluntary livestock 
grazing upon voluntary donation of the permits and acquisition 
of private lands within and adjacent to the wilderness areas.
    S. 2833 directs the BLM to develop and implement 
transportation plans for the public lands outside the proposed 
wilderness areas. Completion of these plans will lead to better 
resource protection from damage resulting from cross country 
motorized recreation in Owyhee County.
    S. 2833 establishes the Owyhee Science Review and 
Conservation Center in Owyhee County to conduct research 
projects to address natural resource management issues that 
effect public and private range lands in the county. The 
Wilderness Society supports the establishment of the Owyhee 
Science Review and the Conservation Center. We support the 
collection and analysis of the most up to date information and 
research regarding resource management and the sharing and 
distribution of that information among all the interested 
parties.
    S. 2833 gives greater protection of the Shoshone Paiute 
Cultural sites and resources in what's been called one of 
Idaho's richest archeological areas. The legislation directs 
the BLM to coordinate with the Shoshone Paiute tribe 
implementation of the Shoshone Paiute Cultural Resource 
Protection Plan. Implementation of this plan is needed to help 
protect the cultural resources of Owyhee County from chronic 
theft and vandalism.
    In summary, The Wilderness Society has been proud to 
participate in the Owyhee Initiative and is pleased to be here 
today to urge the passage of S. 2833. We want to reaffirm The 
Wilderness Society's commitment to the Owyhee Initiative and is 
seeing through implementation of the entire agreement including 
the provisions that are outside the scope of this legislation. 
Thank you.
    [The prepared statement of Mr. Gehrke follows:]
 Prepared Statement of Craig Gehrke, Regional Director, The Wilderness 
                     Society, Boise, ID, on S. 2833
    Thank you for the opportunity to testify and state The Wilderness 
Society's (TWS) support for passage of S. 2833, the Owyhee Public Lands 
Management Act of 2008. We are committed to working with Congress to 
ensure that the legislation is true to the intent of the Owyhee 
Initiative Agreement, a unique agreement developed in Idaho between 
conservationists, ranchers, Owyhee County elected officials, members of 
the Shoshone-Paiute Tribe, and others. TWS is also committed to working 
with Congress to ensure that the legislation is in the best interest of 
our public lands. S. 2833 provides lasting protection for critical 
ecological, scenic, recreation and wild areas that are threatened from 
development and degradation.
    TWS deeply appreciates the work done over the past several months 
by majority and minority subcommittee staff, Senator Crapo's staff, and 
Senator Craig's staff on S. 2833. That work has produced legislation 
that reflects important goals and objectives of the Owyhee Initiative 
Work Group. The Owyhee Initiative Work Group was initially comprised of 
the Owyhee Cattle Association, Owyhee County, Bruneau Soil Conservation 
District, Idaho Outfitters and Guides Association, the Owyhee 
Borderlands Trust, The Nature Conservancy, The Wilderness Society, 
People for the Owyhees, and the Idaho Conservation League. The Sierra 
Club was later added to the Work Group. The BLM, Idaho Department of 
Lands, and the U.S. Air Force participated as ex officio members of the 
Owyhee Initiative. After public hearings in Owyhee County urged 
expansion of the Work Group, it was expanded to include Idaho Rivers 
United, the Owyhee County Farm Bureau, Foundation for North American 
Wild Sheep, and the South Idaho Desert Racing Association.
    There are genuine and significant conservation gains achieved 
through S. 2833. Wilderness and Wild and Scenic River designation, 
preparation of travel management plans that will lead to better 
resource protection from damage resulting from cross-country motorized 
recreation in Owyhee County, closure of 200 miles of motorized routes 
through proposed wilderness, establishment of a conservation research 
center, increased protections of Shoshone-Paiute cultural sites and 
resources, and acquisition of private land inholdings in candidate 
wilderness areas and public rights of way across private land all 
create a total package that TWS supports.
                               wilderness
    The bill designates 517,000 acres of BLM wilderness. The landscape 
within the wilderness proposal is diverse, ranging from river canyons 
over a thousand feet deep to vast expanses of sagebrush and grassland 
plateaus that provide habitat for sage grouse, pronghorn antelope, 
bighorn sheep, songbirds, raptors, and numerous rare plant species. 
More than 230,000 acres of lands proposed for wilderness are upland 
plateaus and 224,000 acres are classified as low or moderate hills. 
This high desert, sagebrush steppe habitat is not included in existing 
designated wilderness in Idaho and is generally underrepresented in the 
National Wilderness Preservation System. All of the areas proposed for 
wilderness in S. 2833 represent valuable additions to the National 
Wilderness Preservation System.
    The river canyons in Owyhee County have been called the largest 
concentration of sheer-walled volcanic rhyolite and basalt canyons in 
the western United States. Many of the canyons are more than 1,000 feet 
deep, nearly twice as deep as the Washington Monument is tall. River 
enthusiasts come from around the country to challenge the famous white 
water rapids of these rivers.
    The greatest threat to wildlands in Owyhee County is escalating 
motorized recreation. While WSAs are intended to be managed to protect 
their wilderness character, WSA status has done little to limit 
motorized use as the BLM has not regulated or closed WSAs to motorized 
recreation. Consequently, WSAs in the Owyhee-Bruneau Canyonland region 
have hundreds of miles of illegal motorized routes carved within their 
boundaries. Wilderness designation will close these areas to motorized 
abuse.
    Lands not designated as wilderness will be released and no longer 
managed to protect their wilderness characteristics, but may be 
eligible for future wilderness consideration at a later date.
    There are specific WSAs that TWS regrets will not be designated as 
wilderness, specifically West Fork Red Canyon and Sheep Creek West. 
West Fork Red Canyon is a rugged river canyon that supports redband 
trout populations and would be a logical expansion of the Owyhee River 
proposed wilderness. Sheep Creek West WSA was recommended for 
wilderness by the BLM. Conservationists and ranchers could not reach 
agreement on these two areas. While these two areas would have made 
fine additions to the National Wilderness Preservation System, we 
acknowledge that very nature of collaboration is compromise.
                      administration of wilderness
    The legislation directs the BLM to conduct an inventory of existing 
grazing management facilities and activities in wilderness. Grazing 
will be allowed to continue subject to the congressional grazing 
guidelines and wilderness wildlife management will be subject to 
congressional wildlife management guidelines.
    The bill contains standard language for wildlife management and 
helicopter use and military overflights. In Owyhee County, Idaho Fish 
and Game have used helicopters to transplant and re-establish 
populations of California bighorn sheep, and subsequently used 
helicopters to monitor population trends of bighorn sheep. We expect 
this kind of helicopter use will be allowed to continue so long as BLM 
determines, via required analysis, that such use meets the ``minimum 
management tool'' concept of wilderness management.
    The Act provides for the continuation of outfitting and guiding in 
wilderness consistent with section 4(d)(5) of the Wilderness Act to the 
extent necessary for realizing the recreational or other wilderness 
purposes of the areas.
             owyhee science review and conservation center
    S. 2833 directs that the BLM coordinate with the State of Idaho, 
Owyhee County, and the Shoshone-Paiute Tribe and consult with the 
University of Idaho, federal grazing permittees, the public and federal 
and state agencies to establish the Owyhee Science Review and 
Conservation Center in Owyhee County to conduct research projects to 
address natural resources management issues affecting public and 
private rangelands in Owyhee County. The legislation states that the 
purpose of the Center is to facilitate the collection and analysis of 
information to provide federal and state agencies, private landowners 
and the public with information to allow for improved rangeland 
management.
    TWS supports the establishment of the Owyhee Science Review and 
Conservation Center. TWS supports the collection and analysis of the 
most up to date information and research regarding resource management, 
and the sharing and distribution of that information among all 
interested parties.
                         wild and scenic rivers
    S. 2833 designates 316 miles of Wild and Scenic Rivers in Owyhee 
County. These rivers are some of the most spectacular whitewater rivers 
in the lower 48 states. The boundaries for these rivers shall be \1/4\ 
mile from the high water mark on both sides of the river or the nearest 
confined canyon rim, whichever is shorter.
                              water rights
    In 2000 the Idaho Supreme Court ruled that wilderness areas do not 
carry a federal reserved water right, thus S. 2833 expressly denies a 
federal reserved water right for wilderness areas designated by this 
act. However, each candidate wilderness area contains a proposed Wild 
and Scenic River through which, under terms of the Wild and Scenic 
Rivers Act and Idaho law, will carry with it a federal reserved water 
right. Those Wild and Scenic River water rights will be quantified and 
adjudicated after designation in compliance with state and federal laws 
and with input from federal agencies, the state and other interested 
parties through Idaho's Snake River Basin Adjudication Court.
        land exchanges and acquisitions and grazing preferences
    The legislation authorizes the Secretary of the Interior to 
permanently retire voluntarily relinquished grazing permits. Grazing 
permittees have indicated their interest in permanently retiring 18,000 
animal unit months (AUMS) from public grazing in wilderness, resulting 
in 55,000 acres of cattle free wilderness and 260,000 acres of reduced 
grazing.
    The bill authorizes the sale of public lands within the Boise 
District of the BLM that have been identified for disposal through 
resource management plans, with proceeds from the sale of such lands 
deposited in a special ``Owyhee Land Exchange Acquisition Account.'' 
Funds from this account can be used to purchase lands or interests 
therein within or adjacent to the wilderness areas designated by this 
Act and identified in a map dated March 25, 2008 prepared by BLM for 
Senator Crapo. The account will terminate after 10 years or upon the 
expenditure of $8 million, whichever comes first. TWS supports the 
creation of this account as a unique way to acquire the private lands 
scattered within or near the wilderness areas in Owyhee County.
    Landowners with wilderness-quality inholdings within the proposed 
wilderness areas would have the opportunity to sell or exchange their 
land for equal value federal lands. All land exchanges will be 
conducted in accordance with standard federal procedures. TWS believes 
the exchanges will likely result in a positive gain for the public. The 
lands that we understand would move into the federal estate have 
extremely high ecological and wilderness values whereas the lands that 
would move out of the federal estate and into private hands have 
significantly lower ecological value and no wilderness value.
    The public will benefit from anticipated exchanges because 
inholdings in proposed wilderness would be removed. Acquisition of the 
proposed private inholdings will prevent future conflicts regarding 
landowner access and development issues, as well as acquire for public 
ownership lands that are of key ecological importance, like riparian 
areas and bighorn sheep habitat. Additionally, some of the private 
inholdings that we understand would be acquired are in excellent 
vegetative condition, and the acquisition of such lands into public 
ownership is a positive step forward. We are also strongly supportive 
of the acquisition of public rights-of-way across private lands, 
facilitating public access to thousands of acres of public land where 
access has been blocked by ``no trespassing'' signs and locked gates. 
The proposed permanent retirement of livestock grazing within some 
specific wilderness areas broadens the diversity of ecologically 
significant areas in Owyhee County that are livestock free. These are 
all positive actions that will benefit the public and our public lands.
                transportation and recreation management
    The primary threat to Owyhee wildlands is the dramatic increase in 
illegal and inappropriate off-road vehicle use. To date, BLM has not 
completed a comprehensive travel plan for the Owyhee area and 
conservationists, ranchers and responsible ORV-users support the need 
for a timely plan. The Act directs BLM to develop and implement 
transportation plans for public lands outside the proposed wilderness 
areas. The plans are to establish a system of designated roads and 
trails and limit motorized and mechanized vehicles to designated 
routes. Until the date that the BLM completes the transportation plans, 
all recreational motorized and mechanized vehicle use shall be limited 
to roads and trails lawfully in existence before the date of enactment 
of the Act, i.e. cross-country travel is prohibited. The BLM is to 
complete a travel plan for the Owyhee Front not later than one year 
after passage of the act and not later than 3 years for the rest of 
Owyhee County.
    It is important that the BLM make real progress towards completing 
these travel plans, as the past several years have demonstrated that 
cross-country off-road vehicle use continues to grow every year in 
Owyhee County. Delay of this legislation means that the unauthorized 
network of user-created off-road vehicle trails will continue to grow 
resulting in escalating user conflicts and extensive resource damage.
                           cultural resources
    The canyonlands and sagebrush plateaus of Owyhee County contain the 
richest concentration of archaeological sites in Idaho. The ancestors 
of the Shoshone and Northern Paiute have lived, hunted, and worshipped 
throughout Owyhee County and the Snake River Plain for thousands of 
years. The Camas and Pole Creek Archaeological District alone 
incorporates over 500 sites of archaeological significance. The 
legislation directs the BLM to coordinate with the Shoshone-Paiute 
Tribe in the implementation of the Shoshone Paiute Cultural Resource 
Protection Plan and to enter into agreements with the Tribe to 
implement the Plan. Implementation of this plan is needed to help 
protect the cultural resources of Owyhee County from theft and 
vandalism.
                               conclusion
    The Owyhee Public Lands Management Act will achieve the following:

  <bullet> Designation of 517,000 acres of wilderness;
  <bullet> Designation of 315 miles of Wild and Scenic Rivers;
  <bullet> Closure of 200 miles of motorized routes in candidate 
        wilderness areas and completion of a travel planning process to 
        establish a designated system of motorized routes for all 
        public lands in Owyhee County;
  <bullet> Increased protections for Shoshone-Paiute cultural sites and 
        resources.

    These are all tremendous and much needed conservation gains. We 
look forward to continuing to work with you in furtherance of a 
successful outcome.

    Senator Wyden. Thank you very much, Mr. Gehrke. I'm going 
to let most of the time go to my colleagues here because of the 
interest in their home States. Just one question for you, Dr. 
Gibson because the Oregon cattlemen work so closely with the 
cattlemen in Idaho, Bob Skinner probably wouldn't let me get 
away without asking this.
    But what is your sense from a cattlemen's perspective? 
What's the key issue in the Owyhee legislation?
    Mr. Gibson. The key issue on a broad scale is the 
implementation of the Science Review Program that deals with 
basically the four aspects is the information that's being used 
correct, was it collected correctly, was it interpreted 
correctly and is its application reasonable and that really 
affects virtually every cattleman in the county and that would 
be a major issue with the entire county.
    Senator Wyden. I know you have been reaching out across the 
spectrum to various organizations and I think that's why Mr. 
Gehrke gives a lot of bouquets to all concerned for their work 
and I commend you for it. Let's go to my colleagues now for 
their questions.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. First of 
all my fond regard and respect for Dr. Gibson, but he is 
operated in a state of not full disclosure. He forgot for the 
record to tell you, Mr. Chairman, that he and I were once in 4-
H together and that his mother was our 4-H leader. For Bob 
Bennett we showed calves at the Washington County Fair. Now 
that's full disclosure.
    Anyway, it's been my privilege to work with Chad and the 
Owyhee County Cattlemen over the years and his representation 
of them has been a great asset to them. Dr. Gibson with no 
guarantee that the private sector can provide the money to 
carry out this bill, does the Working Group still support the 
Owyhee Initiative without total funding?
    Mr. Gibson. I can't speak for the total Working Group 
because we've done everything by consensus from day one. We'd 
have to address that the same way. In the absence of a 
guarantee it would deal with, probably the, some of the members 
of the Working Group more so then the Working Group as a whole.
    I don't know what, you know, without a guarantee but a 
promise of some sort it would be a matter of each of those 
members of the Work Group making up their own mind as to how 
they want to go forward.
    Senator Craig. I don't question the good faith that any one 
stakeholder group or individual has brought to the table, but I 
have continually expressed this concern that everybody crosses 
the line at nearly the same time, or there's a clear ability 
that all parties remain as whole after the fact as they have 
come to agree before the fact. I still struggle with that some 
and that's probably a question that in many respects 
legislatively cannot be asked or answered. But I don't question 
the commitment that has been verbally expressed by all parties. 
So thank you for that.
    Craig, let me ask you a couple of questions that I think 
are extremely important to me and I think to the State of Idaho 
and certainly to Owyhee County. You're sitting where Secretary 
Bruce Babbitt sat a good many years ago in the later days of 
the Clinton Administration. He was alluding to a series of 
executive orders that was going to permeate the Administration 
in its latter days that many of us were very frustrated by 
because while we were working the process of trying to gain 
some recognition and designation of certain public resources, 
the Congress was working its will.
    As a result of that, an executive order was produced that 
included Escalante Grand Staircase National Monument. I'm sure 
you remember that. Craters of the Moon in Idaho. There was 
parcels of land in Arizona and in Southwest Oregon and in 
California. All of them, in that instance, designated as 
monuments.
    Other Presidents, both democrat and republican in the 
moment of full disclosure, have used the executive order as a 
tool, some in much larger ways. A former Secretary Andress 
under the Carter Administration designated millions of acres of 
park land in Alaska and was hung in effigy in the streets of 
Anchorage, but to no avail. The land was secured. The land was 
designated and many of the citizens of Alaska were very 
frustrated.
    We're in the midst of a Presidential campaign, so I want to 
fast forward a bit. I'm assuming, and it certainly will, be my 
effort to make this bill, and Mike Crapo's effort, as 
successful as possible. But I'm not at all confident based on 
the effort of this Congress that we'll get much done this year.
    If we were not able to pass and bring into law an amended 
or at least a final version of the Owyhee Initiative and if 
Hillary Clinton or a Barack Obama became President of the 
United States, policy attitudes would change. Players would 
change. Approaches toward public land resource allocation and 
management would change with that.
    If that were to happen, and this is a hypothetical question 
and they are always the most difficult to answer, but you've 
been at the table. You've been a very good, oftentimes 
challenging, necessarily so, demanding stakeholder. If that 
were to change and you had access to a democrat administration, 
would you go to them, look them squarely in the eye and say, 
it's a done deal? All of the stakeholders are at the table. 
We've struck an agreement and if you're going to do this by 
executive order, I recommend you encourage passage of the 
legislation or you, by order, create the Owyhee Initiative as 
it has been written.
    Could you respond to that?
    Mr. Gehrke. I think responding to that, Senator Craig, I'd 
be glad to because from my standpoint I think wilderness and 
wild and scenic designation by Congress is the best protection 
for this country that we're talking about. I think that the 
group behind this, the Owyhee Initiative Work Group, the local 
buy in, is something like I've never seen before in all the 
years I've been doing this. I don't want to jeopardize that. I 
don't want to walk away from that.
    We've been kidding ourselves for a long time that the 
Owyhee Initiative just doesn't die regardless of how many times 
it's been hit between the eyes by something. We're sticking 
with it as long as Senator Crapo will stick with it, as long 
the Work Group sticks together, we're committed to wilderness 
designation, to this package that we've put together all these 
years. So I have no intention of going to a different 
Administration and saying ok, the rules have changed now. We're 
sticking to this as long as it has traction in the Congress, as 
long as there's traction with Senator Crapo and the Work Group 
stays together and works with The Wilderness Society to get 
this through.
    Senator Craig. Thank you. Dutifully recorded in the 
committee record. Thank you.
    Bill, you ask an interesting question, or you drew some 
frustration over receipts from public lands and how they were 
used in the case of the Washington County effort. Let me just 
philosophize for a moment with you because I know you don't 
totally disagree, but you've been flexible over time in the 
Owyhee Initiative shows that with Craig's effort and other's 
effort. The low hanging fruit of wilderness from its inception 
in '63 forward is in large part been accomplished.
    We have marvelous tracts of land designated as wilderness. 
Those that are most difficult to designate today are in large 
part associated near and or around metro areas. They are 
sometimes tied into unique and important economic entities, 
like the ranching in Owyhee County. It is not breaking with 
historic tradition to take public resource that can ultimately 
benefit local economy.
    I believe that concept started with Gifford Pinchot in the 
early 1900s when he counseled Teddy Roosevelt and they created 
the Forest Preserves. His term went something like this, we 
cannot separate the communities of interest from its land. Now 
the communities of interest at that time were not The 
Wilderness Society, they were communities of people that lived 
adjoining the public lands. They weren't eastern groups 
reflecting on western land. They were western enclaves of 
citizens who were deriving their economic interest from the 
public land.
    Today where that happens, and in some instance where the 
public interest and the economic interest come together, but 
one is clearly reshaped by the other. I don't believe, and I 
would hope, I or others could convince the Congress that the 
sale of public resource in a changed environment can benefit 
the local economy, not just by the change of use in the public 
lands. But oftentimes, by the very economic entities that it is 
changing by its designation in this case in Owyhee County, 
cattlemen in traditional ranching.
    What it will do in Washington County in Southern Utah is 
change and allow the County Commissioners and citizens there to 
recognize maybe slightly different economic viabilities or 
assets that they can employ in the affected utilization of this 
new designation. So it is not precedenting, precedent. It has 
been historically true. It should remain that in these unique 
interests.
    I think just the raw sell off of land for the good of the 
treasury is a different story. So that's my two bits today. I 
think it's historically accurate. I would hope that in these 
instances, where all parties have come to the table and values 
can be adjusted and both parties can benefit, there is a clear 
recognition of transferring public values to private and 
economic values when both sides agree.
    Do you wish to respond to that?
    Mr. Meadows. I have probably three responses. First of all 
I would challenge that the work we're doing in Washington 
County is designed to get the low hanging wilderness fruit. 
We've been recognizing Utah for a long time.
    Senator Craig. I don't think it exists anymore.
    Mr. Meadows. It's, you know, BLM wilderness quality lands 
have been hard to designate in the State of Utah. I think this 
is a real breakthrough on that point. The larger question. 
There is existing law that allows for the sale of public land. 
In many cases the Bureau of Land Management lands are the lands 
that are sort of left over.
    I mean there are lots of high quality economic and land 
conservation lands included there but it's almost by accident 
of history rather than by design. We think for a variety of 
reasons, conservation interests, economic interests, management 
interests, there is a need to be flexible in the disposal of 
land and in the sale and purchase of land. We fully support 
that.
    But there is law that allows that to occur to the benefit 
of local communities, we think, and to the benefit of the 
Federal estate. When one changes the law to allow for 10 
percent of the sale value to actually go back into the county 
for operational purposes, we think that it is outside the norm. 
We believe strongly in asset value should be transferred to 
asset value and so rather than asset value to operational 
value.
    The County will benefit greatly from the disposal of up to 
9,000 acres of BLM lands that are adjacent to the communities. 
This is going to add dollars to the tax rolls. It allows for a 
planned growth strategy. We think that is a benefit, a great 
benefit to the community and one that we fully support, but 
when you add to that the actual distribution of cash to a local 
county government or to a water district or some other non-
Federal asset base, we think that's a wrong approach to take.
    Senator Craig. Mr. Chairman, I've taken too much time. 
Thank you. I appreciate that observation. I think there is a 
strong argument and you helped shape it a bit. Capital to 
capital asset verses capital to O and M. I think that becomes a 
reasonable question that has to be asked and should be asked. 
But if it makes the deal then maybe it's worth looking at. 
Thank you.
    Senator Wyden. Ok. Thank you, Senator Craig.
    Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman. I know 
that we're pushed for time here and I've been so involved with 
this that all my questions have been answered. I know enough.
    But I would like to just make one other quick statement. As 
we see two strong representatives of the Work Group for the 
Owyhee Initiative here in front of us, as I look out over the 
audience I see many other members of the Work Group who've been 
working with us this last 6 or 7 years. It's just rewarding to 
me to see that kind of commitment for them to come here even 
though they were not witnesses to be a part of this.
    Also to have the President of The Wilderness Society here, 
we've got to take this opportunity and thank him for letting us 
have Craig Gehrke and all the time that's Craig's put into this 
and the commitment of The Wilderness Society to work with us on 
this. I just want to, as I look out over the audience I just 
did not want to let my opportunity slide by before to commend 
all those who were not able to get to the witness table but who 
came all the way out here from Idaho to support this. Thank 
you.
    Senator Wyden. Well said.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman. I too, 
think most of my questions have been answered. I want to 
publicly thank Bill Meadows for his leadership and his 
cooperation as we work through this. I understand that it's 
perhaps been difficult for him as it has been difficult for 
Commissioner Eardley to come to this. They've both been 
stretched about as tautly as they possibly can be to come to 
something they can both endorse and I appreciate that.
    Just to be sure I don't misunderstand, Bill, recognize that 
you have concerns about the allocation of the funds. You do 
support the Wilderness and National Conservation Area 
designations that are in the bill today?
    Mr. Meadows. Senator, as we have discussed, I believe The 
Wilderness Society believes that we're going to have 
significant, lasting protection in the designation of these 
wilderness areas and national conservation areas. I have to add 
that I have many colleagues with whom I work on a daily basis 
and you have colleagues in the Senate who I know are going to 
continue a conversation about boundaries and cherry stems and 
perhaps other units that want to be added. I think The 
Wilderness Society looks at this in much the same way we were 
talking about with Senator Craig just a minute ago.
    There are conservation values that we believe are important 
to protect. We recognize and honor the economic, cultural and 
social values that are also needed to be protected. Working in 
communities is really important to us and our ability to be a 
strong voice. We think The Wilderness Society's role here is to 
be a strong voice for conservation, acknowledging that there 
are lots of other voices, we're going to proclaim our support 
for wilderness and national conservation here.
    I think what you have done in bringing those social, 
cultural, economic and conservation values together to be 
applauded and The Wilderness Society is pleased to support the 
wilderness and national conservation areas that you've 
recommended. We think that's good work.
    Senator Bennett. Thank you. Commissioner Eardley, you've 
been stretched as well. You've stated your support for this 
bill with that stretching occurring. Can you explain perhaps 
some of the compromises you feel that you've had to make here?
    Mr. Eardley. Thank you, Senator. We feel that, you know, we 
feel that we've done most of the compromising. We look out to 
the west of us in Nevada. We look at Clark County and we look 
at Lincoln County and we see that, you know, 70,000 acres in 
Clark County was privatized or designated to be privatized. 
90,000 acres in Lincoln County. We wonder why frankly, we 
wonder why that didn't work in Washington County where we're 
going to end up after three tiers of sales about 9,000 acres.
    However, that's, you know, that's definitely progress and 
we're very supportive of that process and it will benefit, I 
think, Washington County. So therein has been a lot of 
compromise. We've gone from our expectation and maybe somewhere 
between 90 and 70,000 acres down to 20,000 acres that we were 
approximately a year ago and now at 9,000 acres, 5,000 acres to 
become in the third tier.
    Just a comment, if I might, make one about Mr. Meadows 
assuming that there's going to be a lot of prosperity as the 
result of the sales of land that will be on our tax rolls, 
property tax. Obviously he's never tried to manage anything on 
revenues from property tax. No one's ever got wealthy doing 
that. That's a very difficult thing to do.
    Again, we want to apply these revenues to where it is to 
the land that's been affected by the change. We think they're 
noble and worthy causes that we would direct those funds to.
    Senator Bennett. Would one of those causes be a law 
enforcement dealing with off-highway vehicles?
    Mr. Eardley. Yes, that's part of our conservation 
perspective as well, Senator. You know, agriculture, ranching, 
reserving open spaces, those kinds of things that we simply 
would not have the funds to accomplish without a source of 
revenue. It certainly would not come from property tax.
    Senator Bennett. I see. Thank you. Just picking up on what 
Commissioner Eardley commented, Mr. Chairman, I would point out 
that the process of land sales and the allocation of money has 
been taken absolutely from the Nevada bills. That is, we have 
seen what the Congress has done in Nevada, in four different 
counties in every instance providing for money to be allocated 
in this same formula. We did not want to go beyond the Nevada 
precedent.
    We did not want to create something new, recognizing as 
Bill Meadows has made clear that even the Nevada precedent 
remains controversial. Some people oppose it, but as 
Commissioner Eardley said we look over the boundary at our 
neighboring State and see that it has been done there and it 
has been done successfully there. So that is the genesis of the 
procedure that we have written into this bill.
    Now I have no further questions. Again, I thank both the 
County Commission as represented by Mr. Eardley and The 
Wilderness Society as represented by Mr. Meadows for the 
constructive cooperation, occasionally with a few raised voices 
and a tight lips as we've talked through some of these things. 
But it has been a gratifying experience to see everybody work 
together to say let's do the best thing for the land and let's 
do the best thing for the community. That's reflected in the 
title of the legislation as it is for both conservation and 
growth. I thank you for holding the hearing, Mr. Chairman.
    Senator Wyden. Thank you, Senator Bennett and commend you 
for all of your good work.
    I think I'll wrap up very briefly by saying that if you 
really think about the best of Earth Day and what it was 
supposed to always be about and what Gaylord Nelson envisioned. 
It's about what we're trying to do today.
    It's about trying to bring people together, environmental 
folks, ranchers, cattlemen, business people, local government 
and trying to find common ground. I want to commend all of you 
for the way that you're approaching this. I think Senator 
Bennett said something early on that all of us would identify 
with that when you go into these discussions about public lands 
it's ultimately about good faith. It's about actually being at 
the table and trying to get it done and trying to come up with 
a result that satisfies all concerned. I can tell you in this 
room I see an awful lot of good faith and a desire to come 
together and get these matters resolved.
    Toward that end, what we're going to do and I spoke with 
Chairman Bingaman about this and I know Senator Domenici, our 
ranking minority member, feels this way as well. We're going to 
direct our bipartisan staff to work very closely with all of 
you, to work with the Administration to see if we can get these 
matters resolved. We will have to tackle a number of additional 
issues and we're going to do it with the kind of good faith 
that Senator Bennett has talked about.
    So thank you for coming and approaching, particularly Earth 
Day, with exactly the kind of spirit that I think the founders 
had in mind. With that the subcommittee is adjourned.
    [Whereupon, at 4:09 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Joel Holtrop to Questions From Senator Barrasso
                            s. 934/h.r. 1374
    Question 1. Mr. Holtrop, could you elaborate on this parcel of land 
and what exactly warrants this exchange?
    Answer. Tract W-1979 in Leon County, Florida is a tract that has 
evolved into an unmanageable, problem area for the Apalachicola 
National Forest. It is fragmented from the Forest with a major highway 
(Capital Circle) to the north and private large-scale developments to 
the east and west, which include a grocery store, strip mall, and a 
300+ unit apartment complex. The southern boundary is a 100-foot wide 
power line easement. Due to the property's configuration, along with 
the surrounding developments and highway, there are public health and 
safety risks associated with management of this area through prescribed 
fire and other activities. Unmanaged recreation and illegal activity 
have become prevalent on this tract as well. These issues will compound 
over the next 3 years as Capital Circle is widened to a 6-lane highway 
and the adjoining developments continue to expand. For these reasons, 
the Forest Service supports disposition of this property to acquire 
private tracts within the Apalachicola National Forest better suited 
for public use and management. The disposition of Tract W-1979 through 
S. 934 would reduce boundary management costs and would allow for the 
purchase of priority endangered species habitat, critical wetlands, and 
potential recreation areas for the public.
    Question 2. If this land has been on the Forest's surplus list for 
10 years why hasn't the forest carried out an administrative exchange?
    Answer. Leon County has expressed strong interest in Tract W-1979. 
An administrative exchange was discussed several years ago with the 
County. The County, however, does not presently own any land suitable 
for exchange. As a result, the County would be required to purchase and 
hold title to private land of equal value in advance of consummating an 
exchange with the Forest Service. Referred to as an Assembled Land 
Exchange, these often take many years to complete and there is a risk 
the proponent may end up owning unwanted property if the exchange is 
never finalized. For this reason, an administrative exchange with the 
County has not been pursued.
    Question 3. If the agency is unwilling to complete these exchanges 
administratively, why should Congress give the agency the proceeds when 
these lands are sold or exchanged?
    Answer. As mentioned in response to Question 2, Leon County does 
not presently own any land that would be suitable for administrative 
exchange. Under the Florida National Forest Land Management Act of 
2003, the Forest Service is authorized to sell seventeen isolated 
tracts of land in Florida and can use the proceeds from land sales to 
purchase inholdings around the National Forest or cover administrative 
expenses. The proposed legislation would expand that authority by 
adding Tract W-1979 and would also allow the Forest Service to use the 
proceeds from the sale of improved, non-greenland tracts in the 2003 
Act for the acquisition, construction, and maintenance of a new 
District Office to serve the public on the Osceola National Forest and 
the Apalachicola National Forest. The Forest would subsequently realize 
a substantial deferred maintenance savings associated with the existing 
50-year old Osceola Ranger District Office and would be relieved from 
an estimated $1,000,000 future expense associated with modifications to 
resolve accessibility, health and safety, and general maintenance 
issues.
                                 ______
                                 
     Responses of Julie Jacobson to Questions From Senator Barrasso
                                s. 2833
    Ms. Jacobson, this bill authorizes the Secretary of the Interior to 
fence off these wilderness areas as ``appropriate to protect wilderness 
values.''
    Question 1. How many miles of wilderness boundary will result on 
BLM lands if the Owyhee Wilderness Bill is passed?
    Answer. We estimate roughly 630 miles of the exterior wilderness 
boundary crosses BLM-managed public lands.
    Question 2. What is the current cost of building a mile of remote 
fencing in each of these following BLM Districts: Owyhee, Bruneau, and 
Jarbidge?
    Answer. The cost of new fence construction is dependent upon 
several factors, including the remoteness of the project and the type 
of terrain. In general, new fencing in Owyhee County would likely be in 
the range of $5,500 to $7,000 per mile.
    Question 3. If the BLM is not appropriated any additional funds to 
build these fences, what other areas of the BLM's budget would have to 
be borrowed from to pay for the fencing?
    Question 1. Section 4(h)(3)(C) of S. 2833 states:

          The Secretary may construct and maintain fencing around 
        wilderness areas designated by this Act as the Secretary 
        determines to be appropriate to protect wilderness values.

    The legislation makes clear that the fencing is not mandatory. It 
is not possible at this time to determine how many miles of fence might 
be constructed or what source of funds might he used.
      Responses of Julie Jacobson to Questions From Senator Craig
    Question 4. Ms. Jacobson: One of my concerns about the language we 
are reviewing today lies in Section 6--Lands Identified for Disposal. 
It states, ``proceeds from the sale of public land under subsection (a) 
SHALL he deposited in a separate account in the Treasury of the United 
States to be known as the ``Owyhee Land Acquisition Account''.'' Should 
I be concerned that such language could redirect federal dollars away 
from the Boise Foothills project? Could you provide more clarity on 
this situation? What parcels are involved and where? What phase is this 
project in?
    Answer. It is my understanding that under Public Law 109-372, the 
Idaho Land Enhancement Act (commonly referred to as the Boise Foothills 
Act) the BLM lands identified for exchange are in the northern part of 
the state and that none of them are within BLM's Boise District. Under 
section 6(a) of S. 2833 only lands within the BLM's Boise District 
would be affected. Therefore there should be no conflict with Public 
Law 109-372. Furthermore, I am informed by the BLM in Idaho that the 
Boise Foothills project is slated to be completed within the next 
month.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Janine Blaeloch, Director, Western Lands Project, on S. 
                                  2834
    Founded in 1997, the Western Lands Project is a non-profit, 
membership organization conducting research, outreach, and advocacy for 
reform in federal land exchange policy. We also scrutinize a broad 
range of projects that propose to sell, give away, or relinquish public 
control of public lands.
    We request that this testimony be made part of the record for S. 
2834.
               federal land disposal and county subsidies
    We opposed the original version of this bill as part of a coalition 
of more than forty organizations, and we urge you not to pass the 
current bill. We object to the ``disposal'' of public land by fiat, 
particularly where such privatization will facilitate the development 
of more subdivisions, golf courses, and water pipelines in an arid 
region.
    In Section 702, the legislation directs the sale of public lands in 
two ``tiers.'' While it is not clear in the bill, according to the bill 
summary on Senator Bennett's web page, these lands were identified for 
disposal by the Bureau of Land Management (BLM) in its current Resource 
Management Plan (RMP).
    It is important to note that under the normal administrative 
process, lands identified as suitable for disposal in an RMP will not 
necessarily or inevitably be sold or exchanged--and even after being 
identified as such are subject to environmental analysis under the 
National Environmental Policy Act (NEPA) prior to sale. This 
legislation mandates the sale of certain lands, and it is not clear 
whether NEPA compliance would be required before the sales. But the RMP 
process alone cannot ensure that environmentally sensitive lands or 
lands that should be retained in public ownership are protected from 
``disposal''--the more specific and detailed analysis for each 
individual sale must be conducted.
    Senator Bennett repeatedly stresses that his legislation is modeled 
on public land bills sponsored by Majority Leader Harry Reid, and some 
outcomes of Mr. Reid's legislation are instructive. A case in point is 
an area north of Las Vegas that was identified for disposal by the BLM 
and mandated to be sold in Senator Reid's Clark County land bill of 
2002. After their sale was directed by Senator Reid, several thousand 
acres were found to host a rare plant species and important 
paleontological features, and their sale is now in dispute.
    Like Clark County, Nevada, Washington County, Utah is rich in 
cultural resources and is home to many sensitive, threatened, and 
endangered species--not appropriate territory for bypassing or fast-
tracking environmental analysis. Land disposal should not be mandated 
in legislation in a wholesale manner, but left discretionary to the 
agency and based on the deliberative process provided in existing law.
    We also oppose the use of proceeds from the sale of public land to 
subsidize local government administration, infrastructure, and a grab-
bag of uses the County may choose. Public lands are not a liquidity 
fund for local politicians and developers to dip into for basic 
services and pet projects.
    Washington County would receive 10 percent of proceeds from the 
sale of federal lands and would be authorized to use the funds for a 
list of purposes so broad and open to interpretation as to be 
meaningless. Again, implementation of Senator Reid's Clark County bill 
provides a good example of how the leeway provided in categories such 
as ``conservation purposes'' and ``public safety'' plays out. Clark 
County projects funded by American taxpayers through federal land sales 
have included such things as a $42 million shooting range and an 
``urban trail'' system that consists of city sidewalks.
    It should be noted that non-federal parties that own land in either 
of the proposed National Conservation Areas or in any other part of the 
county that lies within desert tortoise critical habitat stand to 
receive a premium from American taxpayers if the government acquires 
their land. Former Utah Representative Jim Hansen slipped a special 
provision into a 1996 omnibus parks and public lands bill, PL 104-333, 
that effectively inflates the value of any non-federal land in the 
entire county acquired by the federal government through purchase or 
exchange. In language enacting the Sand Hollow Land Exchange between 
the BLM and the Washington County Water Conservancy District, Hansen 
inserted the following provision:

          In acquiring any lands and any interests in lands in 
        Washington County, Utah, by purchase, exchange, donation or 
        other transfers of interest, the Secretary of the Interior 
        shall appraise, value, and offer to acquire such lands and 
        interests without regard to the presence of a species listed as 
        threatened or endangered or any proposed or actual designation 
        of such property as critical habitat for a species listed as 
        threatened or endangered pursuant to the Endangered Species Act 
        of 1973.

    Restrictions on development that result from the presence of an 
endangered species generally reduce the fair market value of a piece of 
land, so this provision gives an inflated value to non-federal tortoise 
habitat anywhere in the county.
    Some of the more extreme provisions of the original Washington 
County bill have been removed or reduced in scope, but that does not 
make this a reasonable bill. The former version contained a massive 
giveaway of public land to the local water conservancy district, while 
this one includes a merely large, free right-of-way on public land. 
Presuming the county and the city of St. George continue to sprawl 
across the desert, federally-subsidized pipeline projects and the like 
will be back in future legislation.
                    dixie national forest conveyance
    The land sale directed in Title X does not belong in this 
legislation, nor any bill, for that matter. The landowner who would 
benefit by this special sale of public land has a trespassing use on 25 
acres of national forest land next to his private holding. He does not 
qualify to purchase the land under existing laws such as the Small 
Tracts Act and thus has sought special legislation to enable him to 
purchase the land. The sale of the 25 acres--let alone the 112 acres he 
would be allowed to purchase through this bill--is not in the public 
interest.
    Our organization submitted testimony against a version of this 
conveyance introduced in the 107th Congress (HR 5180). At that time, 
the landowner wanted 560 acres, and the site contained wet meadows and 
riparian habitat along a major creek. It's not known whether those 
features are still encompassed in the proposed land sale, but by 
setting a short deadline for the sale, the legislation precludes 
environmental analysis and disclosure under NEPA. The proposal is an 
egregious example of doling out a public asset for the benefit of one 
person and should be abandoned once and for all.
                               conclusion
    We urge the committee to reject S. 2834, along with any future 
proposals (from either party) that privatize federal land, subsidize 
irresponsible development, and bilk taxpayers for the benefit of a 
select few.
    Thank you for your consideration of this testimony.
                                 ______
                                 
 Statement of Marcia Argust, Legislative Representative, Campaign for 
                    America's Wilderness, on S. 2833
    The Campaign for America's Wilderness applauds the work of the 
Owyhee Initiative Work Group, Senator Mike Crapo (R-ID), and Chairman 
Jeff Bingaman (D-NM), which led to the April 22, 2008 hearing before 
the Senate Energy and Natural Resources Subcommittee on Public Lands 
and Forests on the Owyhee Public Land Management Act of 2008 (S. 2833), 
sponsored by Senator Crapo. In a time of polarized congressional 
politics and frequent disputes over public lands in the West, this 
hearing is a positive sign of what can be done when bipartisanship, 
dialogue, and hard work are chosen over distrust, lawsuits, and 
stalemate.
    Senator Crapo and Senator Bingaman, Chairman of the Energy and 
Natural Resources Committee, worked together to shape a new bill that 
avoids some of the divisive policy issues and legislative pitfalls that 
might have thwarted Senator Crapo's original bill (S.802) from moving 
forward. The new bill remains true to the needs and intentions of Sen. 
Crapo's constituency: sustaining existing ranching operations, 
assisting the livelihood of the local community, and preserving quality 
wilderness.
    The Campaign for America's Wilderness strongly supports this 
legislation, which will protect as wilderness more than a half million 
acres of stunningly beautiful canyonlands and ecologically rich high 
desert in southwestern Idaho. This area boasts the last vestiges of 
intact sagebrush ecosystems, lush riparian pockets, juniper stands, and 
oases that provide for diverse populations of wildlife and plant 
species. The bill would also designate over 300 miles of rivers as Wild 
and Scenic, binding together wilderness units and creating unspoiled 
wildlife and rafting corridors.
    Because the Owyhee-Bruneau Canyonlands are only an hour and a half 
drive to Boise and the Treasure Valley area?one of the fastest growing 
regions in the nation?the Owyhee landscape is faced with encroaching 
development and is frequently overrun by skyrocketing numbers of 
motorized recreationists. The latter has taken a toll on both the 
landscape--illegal trails are created every week, adding to the already 
10,000 miles of trails and roads that criss-cross the land and fragment 
ecosystems--and the Owyhee County budget. The County is forced to spend 
funds to monitor and conduct search and rescues on millions of acres of 
federal land. For these reasons, it's imperative that S. 2833 be 
enacted this Congress.
    While S. 2833 may not be a perfect bill from our perspective, the 
dynamics of this area make a ``perfect'' bill nearly impossible. Owyhee 
County is not an area where the wilderness would be designated on a 
mountainside, thousands of feet above where people live and work. 
Rather, the Owyhee Public Land Management Act protects lands closer to 
communities and residents.
    By the very nature and diversity of the groups engaged in shaping 
S. 2833, it was clear from the start that the Owyhee legislation would 
not reflect every provision that every stakeholder wanted, but it would 
seek to include the critical provisions each group needed to stay at 
the negotiating table. Against all odds, the legislation has succeeded 
in this goal. To drive home this point, a list of the broad groups 
endorsing S.2833 follows this statement for inclusion in the hearing 
record.
    Senator Crapo deserves high praise for his commitment to bringing 
together myriad and diverse interests to find common ground on a 
comprehensive plan for the future of public lands in Owyhee County. His 
years of work will pay off for ranching families who will be able to 
continue operating, sportsmen who will continue to hunt in some of the 
best game territory in the West, as well as have access to new areas 
that will be open to the public under this legislation, communities 
that will have more law enforcement resources, Tribes which will 
receive more protection for cultural resources, and outdoor enthusiasts 
who will be able to enjoy this unspoiled, vast landscape for years into 
the future.
    We're pleased that Senator Bingaman worked with Senator Crapo on 
this measure and is committed to moving it through the Senate. We look 
forward to quick passage of the Owyhees legislation and to working with 
Senator Crapo and the Owyhee Initiative stakeholders to ensure full 
implementation of the bill and the Owyhee Initiative Agreement.
                                 ______
                                 
  Statement of Katie Fite, Biodiversity Director, Western Watersheds 
                           Project, Boise, ID
    From the beginning, this was not a ``collaborative'' process. 
Western Watersheds Project was purposefully excluded from the process, 
since we had been involved in trying to change abusive livestock 
grazing practices. Livestock grazing is currently destroying--through 
cattle causing irreversible weed spread and other adverse ecological 
effects--much of the area this Bill affects. Thus, the process 
purposefully cut out parties that would advocate for more integrated 
and ecosystem--based management in the grazing-imperiled and nationally 
significant Owyhee Uplands.
    This Bill will only result in the landscape becoming more 
fragmented by extensive new livestock facility development, and 
intensified grazing use as a result of facilities, and/or cattle forage 
``treatments through burning, spraying and herbiciding, and other 
development in across the 200,000 acres of hard-released WSAs. This 
Bill will be a tremendous loss for biodiversity, public lands, 
wildlife, and waters in the Owyhee region. The primary beneficiary of 
released WSA lands in the Bruneau-Sheep Creek region west of the 
Bruneau River is the ag-conglomerate of billionaire public lands 
rancher Simplot, whose grazing use occurs across nearly all that area.
    The portions of the sagebrush WSAs to be released are nearly always 
biologically critical plateau areas, which provide critical sagebrush 
habitats for rare and declining wildlife. The stringer Wilderness of 
the OI in many area focuses on the canyons--which in many cases are not 
being grazed due to their rugged nature, and which are not used by 
imperiled species like sage-grouse. However, the WSA portions to be 
released are the plateau lands where ranchers seek to increase grazing 
use--to the detriment of public wild lands and wildlife.
    carving or shaving off portions of wsas will promote cattle and 
          facility degradation of critical sagebrush habitats
    From the maps we have reviewed, it appears that the deleterious 
``shaving'' or carving off parts--or entire regions--of WSAs remains a 
central part of this Bill. This is particularly alarming in the 
Bruneau-Sheep Creek area, in the heart of Little Jacks Creek where 
Simplot and Davis grazers covet a destructive new livestock water 
pipeline in released WSA lands, and in portions of the Jarbidge region 
where industrialization of the landscape for livestock, and the 
accompanying livestock-promoted weds and cheatgrass-fueled fires, are 
wreaking havoc on the landscape. The ONLY thing that has kept 
politically powerful ranchers from intensifying grazing use near the 
canyons has been WSA status of lands. Thus, lands in WSAs to be shaved 
for release here are remnant better condition lands including critical 
big game and sage-grouse nesting and winter range.
    The Owyhee Bill Releases and shavings of WSA areas in the Jarbidge-
Bruneau and Sheep Creek regions will be a large net loss for wild lands 
and wildlife. The Release of these lower elevation sagebrush habitats 
that are currently in better ecological condition primarily because of 
the limited grazing use they currently receive is an ecological 
travesty. It is being done for the sole benefit of billionaire public 
lands rancher Simplot (who grazes close to a million acres in the 
Owyhee region), a Brackett permittee, and one or two others.
                      permit retirement questions
    While WWP strongly supports grazing permit retirement, the acreage 
to be retired here consists largely of lands ranchers have difficulty 
grazing due to spring mud conditions (lower Battle Creek near Owyhee 
River), or lands where their cattle grazing has so beat out the 
understory over the years that little forage remains (some portions of 
Jacks Creek), as well as areas where they have been able to graze few 
very AUMs due to limited water (plateau portions of Jacks Creek). 
Recent BLM documents (the Bruneau BLM Battle Creek allotment EA) show 
ranchers have been grazing far below levels shown on grazing permits in 
the Little Jacks Creek area. Much more detail on the grazing permit 
purchase must be provided to enable full understanding of how few AUMs 
are actually being grazed, compared to AUM numbers to be purchased.
           public land should not be sold to acquire permits
    While we have been assured that the intent of the Bill is not to 
sell public lands to purchase grazing permits, we request that language 
be changed to make it crystal clear that is not the intent.
                     ``interests'' must be defined
    The Owyhee Bill refers to the purchase of ``interests'. The scope 
of any interests here must be clearly defined, as ranchersmay consider 
all manner of things from fences to grazing permits as ``interests''.
 any private land, conservation easement, or other acquisitions should 
               not be the funded by sales of public lands
    We are opposed to the sale of public lands associated with the 
Owyhee Bill. Purchase of lands and/or ``easements'' should be done with 
Land and Water Conservation Funds, or through other mechanisms. While 
FLPMA allows sales of public lands, retaining intact blocks public 
lands in the Owyhee region is critical to protection of sage-grouse, a 
landscape species, other wildlife, and public recreational use.
    Plus, Land Use Plans like the Bruneau MFP are a quarter century 
old, and lands targeted for disposal a quarter century ago may have 
much higher values to the public now. The Owyhee RMP is now nearly 10 
years old, and allows disposal of lands now realized to be especially 
critical to sage-grouse and other native wildlife.
                          value of appraisals
    We are very concerned that Appraisals may over-value private lands, 
and under-value BLM lands. As the four maps prepared for Congress show, 
very little land is to be acquired, but many millions of dollars would 
be spent--and an unrevealed acreage of public land would be sold to do 
this.
    A review of the maps shows that some of the areas for acquisition 
may not even be located next to Wilderness. Portions of this Bill seem 
primarily designed to be a way to transfer funds to some select 
ranchers.
 vital information to understand what bill actually will do is lacking
    Information essential to provide adequate Testimony on this current 
Owyhee Bill has not been provided to us by Bill proponents. WWP has 
requested copies of any Agreements that may have been signed with 
ranchers, and other information and we have not received it. It is 
impossible to understand from the Bill what AUMs would be retired 
where. For example, in the 2006 version, a Buyout would have occurred 
in the Little Jacks area that only removed one permittee, while still 
leaving the other (Simplot) to graze in the same area. Is that still 
the case?
    Are there still detailed Rancher Agreements, and if so what do they 
say?
    It is likely BLM and ranchers will rely on those Agreements--and 
haggling over Agreement intent management, and whittling away at 
wilderness values, will occur This is happening in the Steens.
    It is exceedingly difficult to comment adequately without much more 
information. This Bill appears to be on a fast-track so as to prevent 
public understanding of many important details.
    No public hearings have been held in Idaho on this latest version, 
either.
                              wsa release
    This Bill releases several WSAs in their entirety.
    Released WSAs include magnificent old growth western juniper and 
labyrinthine rhyolite canyons on the Oregon border adjacent to lands 
proposed for Wilderness status by the Oregon Natural Desert Association 
in Oregon. In the three WSAs to be released here, ranchers have long 
sought to burn, spray and destroy mature and old growth forested 
vegetation to eke out more AUMs on grazing-depleted lands in the 
vicinity of Juniper Mountain.
    Released WSAs also include the sagebrush country of Sheep Creek 
East and West WSAs. At a time when sage-grouse, pygmy rabbits and other 
rare and declining sagebrush-dependent species are hurtling toward ESA 
listing, the is the last thing in the world Congress should be doing. 
Keeping these lands free of new roading and intensified livestock 
facilities and disturbance, which will result from release under this 
Bill, is in the public interest. Their release to placate a billionaire 
rancher, is not. The sagebrush WSAs and portions of WSAs targeted for 
hard release include critical sage-grouse lek, nesting, brood rearing, 
wintering and other habitats.
            mapping poorly portrays magnitude of wsa release
    A series of 4 Maps (Little Jacks Creek, Pole Creek, North Fork, 
Owyhee River,) labeled as having been prepared for this Senate 
Committee very poorly depicts the 200,000 acres (over 300 square miles) 
of WSAs to be released. The lands targeted for release are colored 
almost indistinguishably from the lands that would become Wilderness in 
this mapping, which gives the illusion of larger blocks of Wilderness.
    Of particular interest is the fact that the coloring of the map of 
Pole Creek may mask the release of WSA lands near a private parcel to 
be acquired.
                   partial donation must be clarified
    The section on partial donation of permits is troubling. This may 
result in cuts in only ``paper cows''--unless reduction tied to 
capability of the land is specified. Could the wording of the Bill mean 
that in areas where ``paper cows'' or permitted AUMs may greatly exceed 
the number being grazed under actual use and/or under active use (which 
is the case in many Owyhee allotments) grazing use may be intensified 
in non-Wilderness lands? Greater clarity of language must tie 
reductions to the capability of the land area, and not ``paper'' cows.
           reference to fencing wilderness should be dropped
    Fences in sagebrush landscapes are particular hazards to sage-
grouse, as well as antelope and wintering big game, including mule 
deer, antelope, bighorn sheep, and elk. Winter snow conditions and 
windblown weeds may make fences even with supposed ``friendly'' wire 
spacing be barriers and deadly to wildlife.
    Now increasingly research shows that sage-grouse frequently die 
from collisions with fences too.
    By including reference to fencing, the Bill sets the stage for 
ranchers proposing as much as several hundred miles of new fencing 
right along the Wilderness boundary, with devastating effects to 
wildlife. Since much of the Bill's Wilderness is stringers along 
canyons, the total acreage of potential Wilderness lands to be fenced 
is immense.
    This reference to fencing would also promote the building of new 
fences into ACECs in areas where ACEC boundaries differ from 
Wilderness--as in the Jarbidge--allowing potentially intensified 
grazing use in sections of WSAs outside Wilderness.
                         wild and scenic river
    The Bill fails to designate large segments of the West Fork Bruneau 
and other worthy areas as WSRs. The Bill's very bad water language 
threatens the integrity of any WSR that may be designated.
                             water language
    The Bill's language related to water rights is unacceptable.
                 numerous provisions weaken wilderness
    The Bill should simply state that the areas are managed according 
to the Wilderness Act.
                               trail plan
    This is not needed, and could be harmful. It can be interpreted as 
mandating more trails than currently exist. The purpose of Wilderness 
is not to have trails or a trail plan. There are no established 
equestrian trails, and only a few informal trails into canyons in the 
WSAs. This does seem to allow establishment of a greatly expanded trail 
footprint in Wilderness here.
                               outfitting
    This language authorizes (and perhaps mandates) outfitting and 
guiding. The Wilderness Act says outfitting ``may'' occur, but does not 
mandate it. It omits key words found in the Wilderness Act. The Owyhee 
wording does not have a standard whether outfitting and guiding is 
proper. This may guarantee outfitting that is currently occurring to 
continue even if it may conflict with non-outfitted members of the 
public.
                                wildlife
    This Owyhee bill is not exactly consistent with the Wilderness Act 
and should be changed. I can certainly envision ranchers promoting 
extensive mechanized vegetation killing of trees or shrubs as 
``treatments'' for wildlife in wilderness. This is particularly 
troubling since a recent ``mule deer initiative'' promotes extensive 
vegetation manipulation in Idaho. Under the broad wildlife management 
section, none of the provisions are consistent with the Wilderness Act. 
Motorized use and habitat manipulation should not be allowed for 
routine wildlife management, even if ``occasional''. The existing uses 
section is a perversion of the Wilderness Act.
    Under this provision, motorized tree chopping equipment could 
conceivably be proposed to travel crosscountry to ``treat'' lands to 
try to produce more deer to bolster Game Department tag sales--at the 
expense of migratory birds and other native wildlife that ma rely on 
forested vegetation. Or this could be used to drill seed pseudo-native 
cultivars in burned sagebrush lands--if agencies claimed this promoted 
certain wildlife values.
                       insects, fire and disease
    This section is not exactly consistent with the Wilderness Act. 
Especially when viewed together with the Wildlife Section. I can 
readily envision proposals for mowing sagebrush vegetation to create 
``fuelbreaks'' inside wilderness, or chain saw felling of trees as a 
``hazardous fuels project''.
    It also includes local agencies, and is a subtle devolution of 
federal authority over public land and should not be allowed.
                          military overflights
    This section allows the military to greatly mar Wilderness values. 
It should be deleted. Military activity and plane noise may increase 
even more--as now Singapore Air Force planes are bedded down at 
Mountain Home and sonic booming and flying low level over the Owyhee 
Canyonlands. Israeli, German and other planes may soon follow. Noise 
pollution over America's airspace is being promoted to keep funding 
flowing to the Mountain Home Airbase. So this language, in the context 
of the Owyhee Bill particularly, should be removed.

These comments are prepared without full information on many components 
of the Bill, due to the sudden scheduling of a Hearing, and incomplete 
information that is available.
                                 ______
                                 
           Statement of Jack Trueblood, Boise, ID, on S. 2833
    Thank you for accepting this letter of comment on pending 
legislation. Please enter it into the record of comment on S. 2833, the 
Owyhee Public Land Management Act of 2008.
    I am opposed to this legislation for a variety of reasons but most 
specifically because of the inclusion of the area north of the east 
fork of the Owyhee River known as Dickshooter Ridge. This area from the 
Dickshooter Ranch to the river, roughly bounded by Deep Creek on the 
west and Battle Creek on the east, was studied by the Bureau of Land 
Management (BLM) as a candidate for the wilderness system. It was not 
recommended for inclusion because it contains a network of primitive 
roads used by ranchers and big game and bird hunters. Some proponents 
of this legislation will tell you that these are new roads, 
``pioneered'' by guys like me. This is not true. I have hunted there 
for upland birds and big game since the late 1960s and my father did 
before me. The roads were already there and date to around the early 
20th century when the country was homesteaded.
    If this area is suddenly designated ``wilderness'' (in spite of the 
roads) it represents lost opportunity for any hunter who either does 
not own livestock or hire an outfitter. It is not practical to suppose 
that a bird hunter and his dog would walk the eight or nine miles from 
the wilderness boundary to the river canyon (where the chukar hunting 
is best), hunt birds in the heat of September, and then walk back. Nor 
is it practical to assume he could carry a camp on his back. He is 
going to have a gun, ammunition and water to carry on the way in and, 
with a little luck, a heavy bird vest on the way out with birds that 
need to get in a cooler as quickly as possible.
    The possibility of hunting a bighorn sheep, deer or antelope is 
greatly restricted with the lack of access. Those of us who want to 
continue to hunt this area would need to hire the services of an 
outfitter or purchase saddle and pack horses plus all the gear that 
goes with pack animals. Both these options are very expensive and not 
practical for the average hunter.
    As I mentioned above, Dickshooter Ridge was not recommended for 
wilderness designation by BLM. If it is now included in the new Owyhee 
River Wilderness, then I hope Congress will designate the roads that 
traverse Dickshooter Ridge as ``cherry-stem roads'' which can be used 
to access recreation deep within the wilderness. There is plenty of 
precedent for designating ``cherry stem roads'' or access corridors, 
based on previous wilderness legislation and even within this bill.
    Thank you for the opportunity to comment.
                                 ______
                                 
                                           American Rivers,
                                    Washington, DC, April 22, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Domenici: On behalf of 
our 65,000 members and supporters, I write in strong support of the 
Wild. and Scenic River provisions of S. 2833, the Owyhee Public Lands 
.Management Act. S. 2833 would preserve and protect over 300 miles of 
some of the most spectacular unprotected river canyons in the United 
States under the Wild and. Scenic Rivers Act. We applaud Senator Crapo 
and the group of stakeholders, including ranchers, river 
conservationists, outfitters, anglers, hunters and local county 
commissioners, that helped develop this legislation that protects some 
of our nation's most outstanding rivers while providing greater 
certainty in public lands management in Idaho.
    As you know, the Wild and Scenic Rivers Act protects the nation's 
best free-flowing rivers from activities that would destroy their wild 
character. Originally passed in 1968, a Wild and Scenic designation is 
currently the strongest tool available to protect rivers from future 
pollution, inappropriate development, and impoundment. A Wild and 
Scenic designation does not prevent development and use of a river; 
instead, the goal is to preserve the existing character of a river. 
Uses and development compatible with the management goals of a 
particular river are allowed.
    American Rivers thanks the Committee for holding a hearing on. S. 
2833 and urges the enactment of this legislation this Congress. We look 
forward to working with you and your staff on technical amendments to 
the bill to ensure the integrity of the Wild and Scenic Rivers Act is 
maintained.
            Sincerely,
                                         Rebecca R. Wodder,
                                                         President.






</pre></body></html>
